<html>
<title></title>
<body><pre>[House Hearing, 116 Congress]
[From the U.S. Government Publishing Office]


                                  

                         [H.A.S.C. No. 116-43]

              SECURING THE NATION'S INTERNET ARCHITECTURE

                               __________

                             JOINT HEARING

                               BEFORE THE

   SUBCOMMITTEE ON INTELLIGENCE AND EMERGING THREATS AND CAPABILITIES

                                 OF THE

                      COMMITTEE ON ARMED SERVICES

                        MEETING JOINTLY WITH THE

                   SUBCOMMITTEE ON NATIONAL SECURITY

                                 OF THE

                   COMMITTEE ON OVERSIGHT AND REFORM

                          [Serial No. 116-57]

                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED SIXTEENTH CONGRESS

                             FIRST SESSION

                               __________

                              HEARING HELD

                           SEPTEMBER 10, 2019

                                     
[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]


                               __________
                               

                    U.S. GOVERNMENT PUBLISHING OFFICE                    
40-505 PDF                  WASHINGTON : 2020                     
          
--------------------------------------------------------------------------------------
                                     
  

                      COMMITTEE ON ARMED SERVICES
   SUBCOMMITTEE ON INTELLIGENCE AND EMERGING THREATS AND CAPABILITIES

               JAMES R. LANGEVIN, Rhode Island, Chairman

RICK LARSEN, Washington              ELISE M. STEFANIK, New York
JIM COOPER, Tennessee                SAM GRAVES, Missouri
TULSI GABBARD, Hawaii                RALPH LEE ABRAHAM, Louisiana
ANTHONY G. BROWN, Maryland           K. MICHAEL CONAWAY, Texas
RO KHANNA, California                AUSTIN SCOTT, Georgia
WILLIAM R. KEATING, Massachusetts    SCOTT DesJARLAIS, Tennessee
ANDY KIM, New Jersey                 MIKE GALLAGHER, Wisconsin
CHRISSY HOULAHAN, Pennsylvania       MICHAEL WALTZ, Florida
JASON CROW, Colorado, Vice Chair     DON BACON, Nebraska
ELISSA SLOTKIN, Michigan             JIM BANKS, Indiana
LORI TRAHAN, Massachusetts
                Josh Stiefel, Professional Staff Member
                Peter Villano, Professional Staff Member
                         Caroline Kehrli, Clerk
                                 
                                 ------                                

                   COMMITTEE ON OVERSIGHT AND REFORM
                   SUBCOMMITTEE ON NATIONAL SECURITY

               STEPHEN F. LYNCH, Massachusetts, Chairman

JIM COOPER, Tennessee                JODY B. HICE, Georgia, Ranking 
PETER WELCH, Vermont                     Minority Member
HARLEY ROUDA, California             PAUL A. GOSAR, Arizona
DEBBIE WASSERMAN SCHULTZ, Florida    VIRGINIA FOXX, North Carolina
ROBIN L. KELLY, Illinois             MARK MEADOWS, North Carolina
MARK DeSAULNIER, California          MICHAEL CLOUD, Texas
STACEY E. PLASKETT, Virgin Islands   MARK E. GREEN, Tennessee
BRENDA L. LAWRENCE, Michigan         CLAY HIGGINS, Louisiana
    Dave Rapallo, Staff Director, Committee on Oversight and Reform
     Dan Rebnord, Staff Director, Subcommittee on National Security
                          Amy Stratton, Clerk
                            
                            C O N T E N T S

                              ----------                              
                                                                   Page

              STATEMENTS PRESENTED BY MEMBERS OF CONGRESS

Hice, Hon. Jody B., a Representative from Georgia, Ranking 
  Member, Subcommittee on National Security, Committee on 
  Oversight and Reform...........................................     8
Langevin, Hon. James R., a Representative from Rhode Island, 
  Chairman, Subcommittee on Intelligence and Emerging Threats and 
  Capabilities, Committee on Armed Services......................     1
Lynch, Hon. Stephen F., a Representative from Massachusetts, 
  Chairman, Subcommittee on National Security, Committee on 
  Oversight and Reform...........................................     6
Stefanik, Hon. Elise M., a Representative from New York, Ranking 
  Member, Subcommittee on Intelligence and Emerging Threats and 
  Capabilities, Committee on Armed Services......................     4

                               WITNESSES

Manfra, Jeanette, Assistant Director for Cybersecurity, 
  Cybersecurity and Infrastructure Security Agency, U.S. 
  Department of Homeland Security................................     9
Rinaldo, Diane, Acting Assistant Secretary for Communications and 
  Information, and Administrator, National Telecommunications and 
  Information Administration, U.S. Department of Commerce........    11
Wilson, B. Edwin, Deputy Assistant Secretary of Defense for Cyber 
  Policy, Office of the Under Secretary of Defense for Policy, 
  U.S. Department of Defense.....................................    12

                                APPENDIX

Prepared Statements:

    Langevin, Hon. James R.......................................    43
    Manfra, Jeanette.............................................    46
    Rinaldo, Diane...............................................    54
    Wilson, B. Edwin.............................................    61

Documents Submitted for the Record:

    [There were no Documents submitted.]

Witness Responses to Questions Asked During the Hearing:

    Mr. Waltz....................................................    73

Questions Submitted by Members Post Hearing:

    Ms. Houlahan.................................................    82
    Mr. Kim......................................................    81
    Ms. Stefanik.................................................    77
              
              
              SECURING THE NATION'S INTERNET ARCHITECTURE

                              ----------                              

        House of Representatives, Committee on Armed 
            Services, Subcommittee on Intelligence and 
            Emerging Threats and Capabilities, Meeting 
            Jointly with the Committee on Oversight and 
            Reform, Subcommittee on National Security, 
            Washington, DC, Tuesday, September 10, 2019.

    The subcommittees met, pursuant to call, at 2:01 p.m., in 
room 2118, Rayburn House Office Building, Hon. James R. 
Langevin (chairman of the Subcommittee on Intelligence and 
Emerging Threats and Capabilities) presiding.

 OPENING STATEMENT OF HON. JAMES R. LANGEVIN, A REPRESENTATIVE 
 FROM RHODE ISLAND, CHAIRMAN, SUBCOMMITTEE ON INTELLIGENCE AND 
 EMERGING THREATS AND CAPABILITIES, COMMITTEE ON ARMED SERVICES

    Mr. Langevin. The subcommittee will come to order.
    So, good afternoon, everyone. I am pleased to welcome 
everyone here today to the joint hearing with the Committee on 
Oversight and Reform Subcommittee on National Security about 
the security of the Nation's internet architecture. I am 
particularly thankful to my good friend Congressman Lynch from 
Massachusetts, my neighbor in New England, and his staff for 
working so diligently in making today possible, along with the 
ranking members of both subcommittees.
    Today we are here to conduct what I believe is much-needed 
oversight regarding the security of the internet's underlying 
architecture, namely, the components, physical sites, and the 
assets that are necessary for the internet to operate.
    Defending the United States assets in this global 
telecommunications network requires a whole-of-government 
approach, and I am concerned that the government is not 
approaching the subject in a cohesive or comprehensive manner, 
creating significant risk for the Nation.
    Both the Oversight subcommittee and the Armed Services 
subcommittee are seeking a better understanding of the 
policies, regulations, and guidelines and interagency 
agreements that govern the protection of this critical 
infrastructure. To the extent that there are gaps, we are also 
interested in learning whether legislative solutions may be 
needed.
    Most people think of the internet as the sites they visit, 
the applications they use, and the emails they send. In other 
words, the people's understanding of what the internet is, is 
very much tied to how they engage with it. However, this leaves 
out an entire architecture that enables the flow of information 
around the world and into people's palms. This architecture 
includes the high-capacity cables buried under the ground and 
laid below the sea, the cable landing stations that connect the 
cables from continent to continent, and the internet exchange 
points, or IXPs, that serve as a clearinghouse for data between 
internet service providers and content delivery networks. These 
are all examples of physical sites and tangible items that are 
required for the internet to operate effectively.
    While these physical sites are critical components of the 
cyber landscape, they are generally viewed as distinct from the 
network's protocols and software that are more familiar to 
people's understanding of the internet. However, they are just 
as important to internet operations. After all, unplugging a 
network cable is just as effective as a denial-of-service 
attack, maybe even more so.
    From the government's perspective, attacking the subject of 
internet architecture security is difficult, due to the 
departments' and agencies' overlapping jurisdictions, 
responsibilities, and capabilities. And I am concerned that the 
executive branch has fragmented internet architecture security 
among multiple departments as opposed to conceptualizing the 
internet as a single ecosystem with departments working 
collaboratively.
    For example, the Department of Homeland Security serves as 
the government lead for all critical infrastructure, and as the 
sector-specific agency for the telecommunications sector. 
Meanwhile, the Department of Commerce's National 
Telecommunications and Information Administration, or NTIA, is 
principally responsible for advising the President on 
telecommunications and information policy issues, and develops 
national policies on internet use and cybersecurity.
    Separately, the Department of Defense is broadly 
responsible for defense of the Nation. Independent regulatory 
agencies, like the Federal Communications Commission, also have 
important responsibilities for ensuring security. To top it all 
off, many of these exchange points are connected to 
international providers.
    So I have no doubt that these agencies work together 
broadly. However, I am very worried that by carving out 
discrete lanes in the road, there are seams left unaddressed in 
the middle, and I am concerned that internet architecture 
security is one of those seam issues.
    Holistic internet architecture security has been generally 
neglected, I believe, with organizations remaining firmly in 
their lanes rather than approaching the problem collectively. 
So, for example, the Department of Homeland Security serves as 
the government lead for--so, in any event, separately, the 
Department of Defense--and DOD [Department of Defense] is 
broadly responsible for defense of the Nation.
    Our Nation's newest cybersecurity organization, the 
Cybersecurity and Infrastructure Security Agency, has 
recognized the inherent challenges in using the critical sector 
framework, particularly with respect to interdependencies 
between sectors.
    The National Risk Management Center's National Critical 
Functions Set explicitly recognizes internet architecture 
functions, such as ``Operate Core Network'' and ``Provide 
Internet Routing, Access, and Connection Services.'' I am 
hopeful that this new framing will help stimulate more cross-
agency and cross-sector discussion, interaction, and policy 
development.
    So the purpose of today's hearing is to better understand 
how the interagency is approaching internet architecture 
security, including with respect to engagement with the private 
sector. In particular, I will be interested in hearing from the 
witnesses how their agencies deal with the fact that internet 
architecture security is not purely a cyber problem and it is 
not a purely physical problem. In order to effectively reduce 
our risks, DOD will have to engage actively and eagerly non-
security-centric agencies such as NTIA and regulatory bodies 
such as the Federal Communications Commission, and vice versa.
    Our country's cyber experts will have to sit down with 
specialists in physical security and electrical distribution 
professionals, because at the end of the day, it won't matter 
if these sites and systems are taken offline by cyberattack, 
sabotage, or natural disaster.
    There is no greater sign of how cross-cutting this issue is 
than the fact that the IETC [Intelligence and Emerging Threats 
and Capabilities] Subcommittee is joined today by the Oversight 
Committee's National Security Subcommittee. Even within the 
House of Representatives, we are inclined to handle things 
within caucuses or within committees; but in recognition of the 
problem's scale, we are here today tackling this issue 
together, because that is exactly what it will take at the end 
of the day.
    So, with that, and before turning to the Ranking Member 
Stefanik and then to Chairman Lynch and Ranking Member Hice, 
let me take a minute just to introduce today's witnesses.
    Ms. Jeanette Manfra serves as the inaugural Assistant 
Director for Cybersecurity with the Department of Homeland 
Security's Cybersecurity and Infrastructure Security Agency 
[CISA]. Ms. Manfra served as Assistant Secretary with the 
Office of Cybersecurity Communications at CISA's predecessor 
organization, the National Protection and Programs Directorate, 
before assuming her current role. Ms. Manfra has held numerous 
other roles within DHS [Department of Homeland Security], and 
she has also served on the National Security Council staff. 
Before joining DHS, Ms. Manfra served in the U.S. Army as a 
communications specialist and as a military intelligence 
officer. I have known Jeannette now for several years, and I 
have great confidence in her and Director Krebs' leadership at 
CISA.
    Joining us also today we have Deputy Assistant Secretary of 
Defense for Cyber Policy, Mr. Ed Wilson. In his capacity as the 
director of--in his capacity, he supports the Secretary of 
Defense and other senior leaders by formulating, recommending, 
integrating, and implementing policies and strategies to 
improve DOD's ability to operate in cyberspace. Prior to this 
duty, General Wilson retired from the United States Air Force 
after serving on Active Duty for over 32 years, to include the 
triple-hatted role of Commander, 24th Air Force; Commander, Air 
Forces Cyber; and Commander, Joint Force Headquarters-Cyber. 
Welcome, and General, thanks for your service.
    And finally, Ms. Diane Rinaldo is the Acting Assistant 
Secretary for Communications and Information for the Department 
of Commerce and the Administrator of the National 
Telecommunications and Information Administration. Ms. Rinaldo 
also serves as the Deputy Assistant Secretary for 
Communications and Information. I have closely tracked several 
of NTIA's cybersecurity initiatives, including on cybersecurity 
vulnerabilities, disclosure and software component 
transparency, and I appreciate her continued support in that 
agency for multi-stakeholder processes to improve internet 
security. I will also note that Ms. Rinaldo is a proud veteran 
of the House Permanent Select Committee on Intelligence, where 
she and I worked before, where she served as the lead committee 
staffer on our information-sharing legislation, the 
Cybersecurity Act of 2015.
    So I welcome all of our witnesses today. And, with that, I 
want to turn to Ranking Member Stefanik for any comments that 
she may have.
    [The prepared statement of Mr. Langevin can be found in the 
Appendix on page 43.]

STATEMENT OF HON. ELISE M. STEFANIK, A REPRESENTATIVE FROM NEW 
YORK, RANKING MEMBER, SUBCOMMITTEE ON INTELLIGENCE AND EMERGING 
     THREATS AND CAPABILITIES, COMMITTEE ON ARMED SERVICES

    Ms. Stefanik. Thank you, Jim. I want to start by thanking 
both Chairman Langevin and Chairman Lynch for holding such an 
important and cross-cutting hearing. I am also pleased to be 
here with my fellow ranking member, Mr. Hice.
    We are fortunate that we are joined by such an excellent 
interagency panel of witnesses to guide us today. Ms. Manfra, 
it is great to see you again before this committee. When last 
we spoke, it was regarding election security, and I am pleased 
that today's hearing will span many of the other important 
missions of your organization, the CISA.
    Ms. Rinaldo, given the important role that NTIA plays, we 
are fortunate to have you here as well. And since, as the 
chairman mentioned, you are a former professional staff member 
from HPSCI [House Permanent Select Committee on Intelligence], 
we can say welcome back to the House.
    And, Mr. Wilson, it is always great to see you back before 
the subcommittee. We look forward to hearing how the Department 
of Defense supports these agencies and our broader national 
security objectives.
    As we look to further improve the security of our Nation's 
internet architecture, we should remind ourselves of the 
urgency of this task. First, the physical enormity of the topic 
and related challenges are worth mentioning. The world's 
internet architecture and, by extension, our domestic 
infrastructure is highly integrated with varying levels of 
resiliency and redundancy. In some cases, there are 
international norms, although laws and policies often vary by 
country and by sector. There are many points of failure in this 
physical internet, and it remains so contested and complex that 
even risk managers lack full awareness on how to identify and 
mitigate threats or weaknesses.
    Second, our own intelligence community provides sobering 
assessments on adversarial use and exploitation of the 
internet. The DNI [Director of National Intelligence], in the 
most recent Worldwide Threat Assessment, has noted that, quote, 
``Our adversaries and strategic competitors will increasingly 
use cyber capabilities, including cyber espionage, attack, and 
influence, to seek political, economic, and military advantage 
over the United States and its allies and partners,'' end 
quote.
    And the physical internet architecture we will talk about 
today is the highway upon which these adversaries travel. So 
what is crystal clear, going into today's hearing, is that our 
adversaries understand our vulnerabilities and will not 
hesitate to exploit these weaknesses to further their strategic 
and economic objectives.
    We are no longer peerless and security is not assured. In 
fact, we see these same adversaries, most notably China and 
Russia, adapting to and learning from our own weaknesses by 
building what amounts to their own state-controlled internet 
architecture to monitor, control, and influence their own 
populations. These very same controls will make it harder for 
us to preserve and protect geopolitical, offensive, and 
strategic options for our Nation and our economy.
    As I have said many times before, cyber threats from state 
and non-state adversaries are real, pervasive, and growing. 
They leverage and integrate cyber information and 
communications technologies for geopolitical and economic gain 
in a seamless way. Yet while these adversaries continue to use 
the internet as a means to achieve strategic objectives, I 
remain concerned that we as a Nation do not yet have a holistic 
strategy in place to mitigate, deter, or oppose their advances. 
This is particularly true regarding the security of our 
physical internet architecture, the topic for today's timely 
hearing.
    Although not the lead agency on this topic, I am pleased 
that the Department of Defense is represented at the table 
today, since they play such an important role in this area, not 
the least of which may be providing expertise to other agencies 
during sensitive national emergencies.
    We all know that DOD research played a central role in the 
development of today's internet through the creation of ARPANET 
[Advanced Research Projects Agency Network]. And today, the 
Defense Advanced Research Projects Agency, or DARPA, continues 
to advance our national security through projects related to 
the resiliency of our Nation's internet architecture, and 
various other sectors, such as the electrical grid, through 
their Information Innovation Office.
    In the oversight we have conducted on the Armed Services 
Committee, I feel confident saying that we have improved our 
military cyberspace and information warfare capabilities, and 
also improved our resilience in many areas. And while a great 
deal of broader interagency cooperation and coordination has 
taken place over the past few years, much work remains to 
secure our Nation's internet architecture and related sectors, 
to ensure we remain fast, agile, and resilient even during 
times of crisis.
    And although today's panel is comprised of government 
experts, we should not forget about the important role that the 
private sector and defense innovation and industrial bases 
play, so that we develop a truly whole-of-nation strategy to 
understand and mitigate these vulnerabilities. Only then will 
our Nation be prepared for the 21st century challenges we face.
    Our witnesses, again, are very well-qualified to help us 
navigate these multidimensional problems, and I thank them for 
being here today.
    Thank you, again, to the chairman. And, with that, I yield 
back.
    Mr. Langevin. I thank the ranking member.
    And now, I would like to recognize and turn to my partner, 
my colleague, the chairman of the Government Oversight and 
Reform's Subcommittee on National Security, Mr. Lynch.

   STATEMENT OF HON. STEPHEN F. LYNCH, A REPRESENTATIVE FROM 
  MASSACHUSETTS, CHAIRMAN, SUBCOMMITTEE ON NATIONAL SECURITY, 
               COMMITTEE ON OVERSIGHT AND REFORM

    Mr. Lynch. Thank you very much, Mr. Chairman.
    Good afternoon to our distinguished panel of witnesses. 
Thank you for your willingness to help the subcommittees with 
our work.
    Before I begin, I would like to first personally thank my 
good friend Chairman Jim Langevin and his staff, as well as 
Ranking Members Stefanik and Hice and their staff, for their 
cooperation and willingness to collaborate with us on this very 
important hearing.
    Mr. Langevin, in particular, has been a strong and longtime 
advocate for improving the infrastructure of our country in 
this measure, and ensuring that necessary cybersecurity 
safeguards are in place to protect the United States against 
the multitude of threats that we face each and every day. He 
has made this issue a priority and it is one that I share, as 
chairman of the House Oversight Subcommittee on National 
Security.
    Today's hearing will examine how Federal departments and 
agencies work together to protect the critical architecture 
upon which U.S. internet and telecommunications systems depend. 
By working together on the issue, we hope that our 
subcommittees will better understand and be better positioned 
to identify and fill gaps and vulnerabilities across the 
various Federal agencies and private sector for the purpose of 
protecting our Nation's internet infrastructure.
    Uninterrupted and secure access to the internet is critical 
to daily life in the 21st century. Our constituents rely on the 
internet to search for jobs, access bank accounts, read the 
news, and communicate with family. Companies in every industry, 
from Midwest manufacturers to the financial sector in New York, 
need the internet to participate in the national and 
international economy. The U.S. military requires reliable and 
secure access to the internet to conduct overseas operation, 
and it is also tasked with protecting our networks from cyber 
intrusions by foreign actors.
    Improving secure and reliable access to the internet is 
also vital to economic development and promoting livelihoods in 
less-developed countries or areas. In fact, our committee, I 
just came back from last weekend, in a congressional delegation 
to Jakarta, where I met with young entrepreneurs from the 
Indonesian financial technology sector, who all highlighted the 
need and importance of expanding internet connectivity across 
Indonesia, more than 7,000 islands, to bring additional 
customers into the digital financial market, and to bank the 
unbanked.
    Given our growing dependence on the internet, even 
temporary disruptions, regardless of whether they are 
intentional or accidental, can have serious and cascading 
effects across industries and among our Nation's critical 
infrastructure sectors. Yet no single U.S. Government entity is 
responsible for securing the internet and its underlying 
architecture. Instead, we have multiple departments and 
agencies, which have various jurisdictional roles, including 
the Department of Homeland Security, the Department of Defense, 
the Department of Commerce, from which we are fortunate to have 
representatives before us today, in addition to the White 
House, the Department of Energy, the Department of Justice, the 
Federal Communications Commission, which all have a role to 
play in securing this infrastructure.
    Adding to the complexity of this task is the fact that the 
physical components of our Nation's telecommunications 
infrastructure, such as fiberoptic cables and data centers and 
internet exchange points, are largely owned by the private 
sector. This means that coordination and communication within 
the Federal Government, and across the public and private 
sectors, are all crucial to the internet security.
    The challenge we therefore face is that when everyone is in 
charge, then nobody is in charge. And while internet activity 
appears to move seamlessly across digital pathways, this 
movement is cemented in real physical architecture and 
infrastructure. The security, which has often been taken for 
granted, in physical fiber cables buried under our streets and 
under international waters, carries this traffic from point A 
to point B. Data centers and internet exchange points serve to 
store and transfer this traffic from network to network.
    All of these physical assets can be damaged by natural 
disasters, human-caused accidents, or intentional attacks by 
sophisticated malign actors. As Ranking Member Stefanik has 
noted and as former Director of National Intelligence Dan Coats 
highlighted in his 2019 Worldwide Threat Assessment, we know 
that our adversaries are already probing U.S. electric utility 
grids, election systems, pipelines, and financial networks for 
any signs of weakness. China, Russia, Iran, and North Korea are 
all increasingly using cyber operations to steal data, 
disseminate misinformation, and I quote, ``to disrupt critical 
infrastructure,'' close quote.
    Russia, Director Coats said, and I quote, ``is mapping out 
critical infrastructure with the long-term goal of being able 
to cause substantial damage,'' close quote. Multiple open 
source reports in recent years have also noted increased 
foreign military activity around undersea data cables, raising 
concerns that hostile actors could be looking for ways to 
interfere with this critical infrastructure.
    To our witnesses, I realize that some of today's questions 
may drift into topics not suitable for an unclassified hearing. 
With that in mind, I just ask that you do your best to answer 
members' questions as candidly as possible, but you should not 
disclose any classified or sensitive security information. 
Instead, please let us know that you would prefer not to 
respond for national security reasons in an unclassified 
setting, and we can move on to the next question. We will, 
however, reserve the right to request that that information be 
disclosed in a more appropriate setting at a later date.
    So, Mr. Chairman, I want to thank you, again, for your 
courtesy in holding this important hearing with me, and with 
that, I yield back.
    Mr. Langevin. Thank you, Chairman Lynch. And I appreciate 
your dedication to national security issues. It has been great 
partnering with you on this topic and look forward to others as 
well.
    With that, I would like to recognize Ranking Member Hice 
for comments.

STATEMENT OF HON. JODY B. HICE, A REPRESENTATIVE FROM GEORGIA, 
RANKING MEMBER, SUBCOMMITTEE ON NATIONAL SECURITY, COMMITTEE ON 
                      OVERSIGHT AND REFORM

    Mr. Hice. Thank you very much, Mr. Chairman, and I would 
like to thank you and Ranking Member Stefanik for hosting this. 
And always an honor to work with Chairman Lynch. We appreciate 
you having us here today, as members of the Subcommittee on 
National Security as part of the Committee on Oversight and 
Reform. We appreciate you having us here, and for having this 
important hearing.
    You know, I sometimes have been, with this hearing, 
somewhat struck by the reactions of different people to this 
topic. Some may look at this as not among the most flashy 
topics, but it has got to be among the most important. And more 
and more, whether we realize it or not, our lives are happening 
on the internet. Whether it be in commerce or energy or health 
care or national security, our lives are impacted greatly by 
the topic and the discussion today. And that is why it is 
imperative for us to be able to come together and to have a 
heart-to-heart, honest, open discussion as to what is involved 
in keeping our Nation's infrastructure safe and secure.
    And so I want to sincerely say thank you to each of our 
witnesses for your role and for you being a part of this 
hearing today, and I look forward to hearing how you are 
engaging the various stakeholders, whether they be in 
government or in the private sector. I want to personally 
better understand how we are taking a whole-of-government 
approach to this issue, and if we are not, then I want us to 
talk about how we get there.
    I am also curious to know how each of your components are 
working together. And there are a lot of seats, if you will, at 
the internet architecture table, if we can put it that way. And 
if there are too many seats, we need to know about that; if 
there need to be fewer seats, we need to know about that.
    The internet, for a lot of people, is an unknown territory, 
but for those of us here in Congress, this is certainly an area 
that we need to dig deeper into, and make sure that we are 
secure. And, you know, this is not something that we can say 
this is in the future. This is where we are currently living. 
And so, we have got to address this straight up. And so, I 
deeply thank you for being here. I look forward to our 
discussion today.
    And, again, many thanks to you, Mr. Chairman. And with 
that, I yield back.
    Mr. Langevin. Thank you, Ranking Member Hice.
    With that, the chair now recognizes Ms. Manfra, Director 
Manfra, for her opening statement for 5 minutes. Ms. Manfra, 
the floor is yours.

     STATEMENT OF JEANETTE MANFRA, ASSISTANT DIRECTOR FOR 
   CYBERSECURITY, CYBERSECURITY AND INFRASTRUCTURE SECURITY 
          AGENCY, U.S. DEPARTMENT OF HOMELAND SECURITY

    Ms. Manfra. Thank you, sir. Chairman Langevin, Chairman 
Lynch, Ranking Member Stefanik, Ranking Member Hice, and 
members of the subcommittees, thank you for today's opportunity 
to discuss this very important issue around securing our 
Nation's internet architecture, and, specifically, our role, 
the Cybersecurity and Infrastructure Security Agency, or CISA, 
role in securing that.
    Safeguarding and securing cyberspace has long been a core 
Homeland Security mission. In today's globally interconnected 
world, our critical infrastructure and American way of life 
face a wide array of serious risks. Nation-state adversaries 
and competitors seek to advance their objectives through 
various hybrid tactics, including subtle actions that 
significantly weaken the foundations of U.S. power, degrade 
society's functions, and increase adversaries' ability to hold 
our critical infrastructure at risk.
    As network devices further weave into our lives and 
businesses, their vulnerabilities provide additional attack 
vectors. Global supply chains introduce risks of malicious 
activity in software and hardware. Many of these risks are 
complex and dispersed geographically and across stakeholders.
    To meet this urgent national security need, Congress 
established CISA last year. CISA is the Nation's risk adviser, 
and we are uniquely positioned to serve this role. By statute, 
and at the President's direction, we lead the Nation's risk 
management efforts by bringing together diverse stakeholders to 
collaboratively identify risks, prioritize them, develop 
solutions, and drive those solutions, to ensure the stability 
of our most crucial systems.
    An important note is that we don't just think about threat 
or vulnerability or consequence; we think about them all 
together and how they interact in order to establish risk. And 
so, we try to understand things, how could an adversary 
actually accomplish something, can they have an actual 
consequence. So when I talk about risk management, that is how 
we frame it.
    So, as the Nation's risk adviser, we must also unify two 
strategic goals across all of our mission space. We must 
simultaneously mobilize strong public-private partnerships to 
defend against the most urgent threats and hazards, while not 
losing sight of the need to build a more secure tomorrow. Our 
foremost responsibility is to safeguard the American people, 
and we prioritize our efforts at all levels to focus on the 
greatest risks facing the homeland. In order to successfully 
accomplish this, we must be able to understand and manage this 
risk holistically. And, again, that means we must understand 
both threat and vulnerability and the consequence, and we must 
also understand how that manifests across the country.
    This is why we established the National Risk Management 
Center. CISA, while often referred to as a cyber agency, is 
more than just cyber. In fact, we have a long history in 
thinking about infrastructure security holistically, both 
against natural and man-made hazards. By establishing the 
National Risk Management Center within CISA, this brings 
together all our different disciplines to better understand 
what is the risk to the Nation as a whole.
    Our first important step was to reframe the conversation. 
Instead of thinking about industry-specific activities, but to 
think about cross-cutting functions, because in the end, 
adversaries are interested in causing consequences to the 
functioning of our society, or holding those at risk. 
Therefore, we worked across multiple sectors of the economy and 
government partners to establish the first set of national 
critical functions in early April of this year. These national 
critical functions support the operations of nearly all 
businesses, public safety organizations, and government, and 
are so vital that their disruption, corruption, or dysfunction 
would have a debilitating effect on our Nation.
    The global internet architecture includes an array of 
components that enable these national critical functions. Going 
forward, we will prioritize our efforts and resources, both 
within CISA and across the government, to ensure we are 
reducing risk to these functions and bringing the full power of 
the U.S. Government to bear to do so.
    At CISA, our vision is to fully realize this national 
effort that I just described. This means breaking down the old 
organizational and institutional divides that impede our 
ability to provide for our collective defense in cyberspace. 
Our adversaries are targeting systems that are across sector, 
and the growing interdependencies demand an integrated 
approach. To achieve this integrated approach, we are working 
and we will continue to work with numerous stakeholders, 
including my colleagues joining me today.
    Specifically, we have been working with the National 
Telecommunications and Information Administration, or NTIA, for 
many years on multiple internet governance issues from Domain 
Name System, or DNS, issues to participating in our multi-
stakeholder process to publish a report on botnets.
    We also have expanded our partnership with DOD. Almost a 
year ago, DHS and DOD finalized an agreement which reflects the 
commitment of both departments to this important issue. This 
agreement clarifies roles and responsibilities to enhance U.S. 
Government readiness to respond to cyber threats, and 
establishes coordinated lines of efforts to secure, protect, 
and defend the homeland.
    Today's national security challenges require innovation in 
government as well as in the economy and throughout the world, 
and I am proud to be working with two partners who share that 
desire for innovation and partnership.
    The heart of CISA's purpose is to mobilize a collective 
defense of our Nation's critical infrastructure, and we cannot 
do this alone. My colleagues on this panel represent some of 
those critical partnerships in order to achieve this goal.
    Tomorrow is the anniversary of the September 11th attacks 
on our country. As we learned from that event 18 years ago, 
information and Federal operations must not be siloed. We see 
these same lessons amplified and complicated by the global, 
borderless, interconnected nature of cyberspace, where 
strategic threats can manifest in the homeland without advance 
warning.
    I thank you again for starting this important conversation 
and holding this hearing, and I look forward to further 
discussing our efforts. Thank you, and I look forward to your 
questions.
    [The prepared statement of Ms. Manfra can be found in the 
Appendix on page 46.]
    Mr. Langevin. Thank you, Director Manfra.
    Administrator Rinaldo, you are recognized next.

  STATEMENT OF DIANE RINALDO, ACTING ASSISTANT SECRETARY FOR 
  COMMUNICATIONS AND INFORMATION, AND ADMINISTRATOR, NATIONAL 
    TELECOMMUNICATIONS AND INFORMATION ADMINISTRATION, U.S. 
                     DEPARTMENT OF COMMERCE

    Ms. Rinaldo. Chairman Langevin, Chairman Lynch, Ranking 
Member Stefanik, Ranking Member Hice, and members of the 
committee, thank you for the opportunity to testify today on 
the role of the U.S. Government in securing the Nation's 
internet architecture.
    The National Telecommunications and Information 
Administration in the Department of Commerce is responsible for 
advising the President on telecommunications and information. 
NTIA collaborates with other Commerce bureaus and executive 
branch agencies to advocate for domestic and international 
policies that preserve the open internet and advance the key 
U.S. interests.
    NTIA is involved in a host of policy issues that affect the 
security of critical elements of our Nation's 
telecommunications infrastructure. Our support includes working 
with our interagency partners to enhance the security of our 
Nation's telecommunications supply chain. We are supporting the 
Secretary of Commerce on the implementation of the Executive 
order on securing the information and communications technology 
and services supply chain.
    NTIA is the lead executive branch expert agency on issues 
relating to the Domain Name System, a critical component of the 
internet architecture. The DNS functions similar to an address 
book for the internet by allowing users to identify websites, 
mail servers, and other internet destination using easy-to-
understand names.
    NTIA supports a multi-stakeholder approach to the 
coordination of the DNS to ensure long-term viability of the 
internet. NTIA collaborates across the government on numerous 
efforts related to the security of the Nation's internet 
architecture.
    We have been working closely with the National Security 
Council and the interagency colleagues on implementing the 
National Cyber Strategy. In that effort, we share our 
activities across the interagency and look for synergies to 
maximize the impact of the strategy. NTIA will continue to 
participate in these efforts.
    One significant example of NTIA's contribution to the 
protection of the internet infrastructure is our work with NIST 
[National Institute of Standards and Technology] and DHS on the 
Botnet Report, delivered to the President in May of 2018. 
Botnet attacks can have large and damaging effects, and they 
put the broader network at risk.
    Botnets now capitalize on the sheer number of Internet of 
Things connections and devices. We have seen attacks that have 
topped a terabyte per second. Dealing with an attack of this 
magnitude can take time, which is a major concern when dealing 
with critical infrastructure.
    The Botnet Report outlines a positive vision for the 
future, cemented by six principal themes and five complementary 
goals that would improve the resilience of the internet 
ecosystem. The Departments of Commerce and Homeland Security 
developed the report through an open and transparent process 
for the specific purpose of identifying stakeholder actions as 
opposed to government regulation.
    We are tracking progress through a document known as the 
Botnet Road Map. More than half of the identified tasks are 
already in progress or completed. At the end of this year, the 
Departments of Commerce and Homeland will provide a status 
update to the President that reviews progress, tracks the 
impact of the road map, and sets further priorities.
    NTIA's cybersecurity multi-stakeholder processes also 
contribute to the security of the Nation's internet 
architecture. Most recently, we have been working on a software 
component bill of materials. Most modern software is not 
written completely from scratch, but includes existing 
components from the open source and commercial software world, 
which can be challenging to track. Our ultimate objective is to 
foster a more resilient ecosystem through industry-led, market-
based cybersecurity solutions.
    Over the past three decades, the internet has been 
transformational for the American economy. America's 
established leadership in technology has resulted in millions 
of jobs and remarkable prosperity. Because of this, we must 
work harder than ever to ensure that the infrastructure 
supporting the internet is secure. NTIA is committed to 
coordinating across the Federal Government and engaging with 
the private sector to ensure the United States can continue to 
harness the economic benefits of this vital part of the economy 
for American businesses and for American workers.
    Thank you for this opportunity to testify, and I look 
forward to your questions.
    [The prepared statement of Ms. Rinaldo can be found in the 
Appendix on page 54.]
    Mr. Langevin. Thank you, Ms. Rinaldo.
    Mr. Wilson, you are now recognized for 5 minutes.

  STATEMENT OF B. EDWIN WILSON, DEPUTY ASSISTANT SECRETARY OF 
  DEFENSE FOR CYBER POLICY, OFFICE OF THE UNDER SECRETARY OF 
         DEFENSE FOR POLICY, U.S. DEPARTMENT OF DEFENSE

    Mr. Wilson. Chairman Langevin, Chairwoman Stefanik, Ranking 
Member Hice, and Ranking Member Stefanik, my apologies, 
Chairman Lynch, and the members of the subcommittee, thank you 
for the opportunity to testify before you today.
    Mr. Langevin. Can you pull the mic a little closer to you, 
General?
    Mr. Wilson. Absolutely. Is that better, sir?
    Mr. Lynch. You might want to turn it on.
    Mr. Langevin. Is it on?
    Mr. Wilson. I have got a green light. My apologies.
    Chairman Langevin, Chairman Lynch, Ranking Member Stefanik, 
Ranking Member Hice, it is really an honor to be here before 
you and the subcommittee members. It is good to be back in this 
Chamber, as well, testifying again. I look forward to 
discussing the role of the U.S. Government in securing the 
Nation's internet architecture alongside my counterparts from 
the Department of Homeland Security and Department of Commerce. 
It is a critically important topic. We understand the sense of 
urgency behind this.
    First, on behalf of Secretary Esper, thank you for the 
tremendous support that Congress has given the Department of 
Defense in our effort to improve our overall defense posture 
related to cyber threats. We have made significant progress, 
but with your support we continue to make significant progress 
to deter, disrupt, and defeat strategic malicious cyber threats 
directed at our national interests. Despite this progress, we 
understand there is much more that needs to be done. And, with 
that, we have been very, very focused on the progress ahead.
    As the 2018 National Defense Strategy and the 2018 DOD 
Cyber Strategy make clear, the U.S. homeland is no longer a 
sanctuary from cyber threats. Our strategic competitors, such 
as China and Russia, are conducting persistent cyber-enabled 
campaigns to erode U.S. military advantage, threaten our 
Nation's critical infrastructure, and reduce our economic 
prosperity, which includes threats to our telecommunications 
and information technology sectors.
    These campaigns are being conducted below the threshold of 
armed conflict, but collectively pose long-term strategic risk 
to the Nation, our allies, and our partners. In response, the 
Department adopted a proactive posture to compete with and 
counter determined and rapidly maturing cyber adversaries. Our 
objective is to prevent or mitigate significant threats before 
they reach U.S. soil. We refer to this strategy as defending 
forward. It is the core of our DOD Cyber Strategy.
    This approach is focused on enabling our interagency, 
industry, and international partners to strengthen their 
resilience, close vulnerabilities, and defend critical networks 
and systems, while simultaneously imposing costs on adversary 
malicious cyber actors when called upon. Towards this end, the 
Department is continually working with our partners, both 
domestically and internationally, to strengthen the resilience 
of networks and systems that contribute to current and future 
military advantages.
    The Department previously focused its defensive efforts 
almost exclusively on military platforms, systems, and 
networks. However, the evolving cyber threat [and] increasingly 
proactive activities of key competitors have demonstrated 
vulnerabilities that extend beyond our DOD systems and 
networks. The vulnerability of critical infrastructure to 
cyberattacks means that adversaries could disrupt military 
command and control, banking and financial operations, the 
transportation sector, the energy sector, various means of 
communication, and a variety of other sectors. As a result, 
supporting U.S. Government efforts in securing and defending 
the Nation's critical infrastructure is a key priority under 
our DOD Cyber Strategy.
    Partnerships are an essential element of our National 
Defense Strategy. We understand that our interagency, 
international, and industry partners are vital to ensuring that 
DOD can operate and project power in a contested cyber 
environment. DOD's role in defending the homeland is outwardly 
focused, like it is in any other domain of operations, focused 
on strategic threats and supports our interagency partners, 
including the Department of Homeland Security and the other 
sector-specific agencies.
    The U.S. Government has a limited and specific role to play 
in defending against attacks on our Nation's internet 
architecture, including through our trusted relationships with 
industry. As we all recognize, security was not a primary 
consideration when the internet was designed and fielded. 
Although computers and network technologies underpin U.S. 
military warfighting superiority by enabling the joint force to 
gain the information advantage, strike at long distances, and 
exercise global command and control, the private sector was and 
operates now well over 90 percent of the interdependent 
networks of information technology infrastructure across the 
cyberspace domain. At the same time, the Nation's 
telecommunications infrastructure is primarily owned by 
commercial entities.
    Our adversaries target our Nation's weakest links, and 
vulnerabilities are consistently found across the full scope of 
the internet ecosystem, be it government or industry.
    The Department, which views the challenges it faces in 
performance of its critical missions principally through a 
national security lens, is nonetheless highly dependent on 
privately owned infrastructure, decisions concerning which are 
regularly guided by ordinary business or economic 
considerations. Recognizing this inherent tension, defending 
national critical infrastructure, including the Nation's 
internet architecture, from significant foreign malicious cyber 
activity has become an area of interest and emphasis for the 
Department.
    A large-scale disruption or degradation of national 
critical infrastructure would constitute a national security 
concern, as would threats to the DOD critical technology 
information, other controlled unclassified information, 
processes stored on non-DOD-owned systems and networks, which 
demands a close cooperation alongside our partners.
    This reinvigorated partnership alongside the FBI [Federal 
Bureau of Investigation], intelligence community, was 
instrumental to the whole-of-government efforts to protect and 
defend the 2018 U.S. midterm elections from foreign 
interference. We continue to leverage the lessons from this 
experience and these activities to help shape and further 
improve how we secure 2020 elections and other ongoing efforts 
related to protecting and defending the Nation's critical 
infrastructure.
    Again, thank you for the opportunity to appear before you 
today and for the continued support you and your staffs provide 
as we address these challenges. I look forward to your 
questions.
    [The prepared statement of Mr. Wilson can be found in the 
Appendix on page 61.]
    Mr. Langevin. Thank you, Mr. Wilson.
    We are going to go and do questions at this point. Members 
are recognized for 5 minutes. Before we go to that, though, I 
just want to mention that we are expecting votes in just a few 
minutes, so we will get through as many of the questions as 
possible. So if we can all stick to as close to 5 minutes in 
questions and answers, that will move things along.
    So, with that, I want to begin for all of our witnesses the 
question: What role does the National Security Council and the 
White House play in facilitating and coordinating amongst all 
the Federal agencies, and can you describe efforts led by the 
White House to address internet architecture security? Ms. 
Manfra, if we could start with you.
    Ms. Manfra. Thank you for the question, sir. Well, the 
National Security Council, as a policy coordination body, 
focuses on, from the cyber perspective, but also on the 
resilience side, areas that we need to either identify or 
implement policies as an interagency body.
    They coordinated the National Cyber Strategy, which was 
released some time ago. And in focusing specifically on, as an 
example, things like the DNS ecosystem, supply chain for our 
ICT [information and communication technologies] ecosystem, and 
as well as other threats that may come up, coordinating both 
the policy and any kind of response that we may need to do, 
either urgently or in the long term.
    Mr. Langevin. Ms. Rinaldo or Mr. Wilson, can you comment on 
any aspects of interactions with the White House on 
coordination?
    Ms. Rinaldo. Yes. As Ms. Manfra said, the White House 
routinely convenes meetings to bring us together to talk about 
issues as the cyber strategy, supply chain, as well as other 
issues that come up, as needed. It is an opportunity to bring 
not only my two fellow witnesses to the table, as well as other 
parts of the government that may have equities in these 
processes as well.
    So they are fairly routine, and with the cyber strategy we 
have due out, so we regularly meet to see where we are on the 
process of implementing that.
    Mr. Langevin. Thank you.
    Mr. Wilson.
    Mr. Wilson. And I would just add, in the series of sessions 
that we do do across the interagency led by the NSC [National 
Security Council] team----
    Mr. Langevin. Can you pull that microphone a little closer?
    Mr. Wilson. Can do. I am going to put on my command voice 
and project, if that is okay then. My apologies.
    As we do, we look at a lot at the threat, we bring in 
especially the intelligence community to understand the threat, 
as well as a series of functional reviews that we do with 
recommendations that follow. And that could be the report that 
was referenced earlier about the botnet. It could be work that 
is going on regarding ransomware across the interagency.
    Sometimes it will start domestically, but then we will 
bring in a larger team if we see some initial work at the 
direction of the NSC team. And so, depending on the topic, 
there is usually a series, but many times, we are organized to 
be able to address specific threats and understand that threat 
so that we have the right actions.
    Mr. Langevin. Ms. Manfra, what is the role of law 
enforcement agencies, such as the FBI and CISA's own Federal 
Protective Service [FPS], in protective or defensive functions 
such as hardening cable landing stations and IXPs that are 
owned and operated by the private sector?
    Ms. Manfra. Sir, we have a very close partnership with the 
FBI in particular, specifically on some of these issues. The 
FBI is able to kind of cross both on the intelligence side as 
well as law enforcement authority, both to take actions, you 
know, legal actions, if needed, through the justice process 
against those who may not be following legal laws related to 
how they are deploying their systems as well as conducting 
investigations that we may be gathering from intelligence 
sources, so working domestically to further investigation to 
determine is there an issue.
    Other law enforcement entities are not as involved on the 
internet architecture issue itself, though they have the 
ability to collect information, or if they have a related case, 
to share that information.
    FPS is primarily focused on physical protection of 
government buildings, and we have worked with them on ensuring 
that building owners are thinking holistically about cyber and 
physical threats to their buildings, but not particularly 
relevant, probably, to the internet architecture conversation.
    Mr. Langevin. I think that is--again, the whole purpose of 
this hearing is so we get a better understanding of what we 
need to continue to focus on, in terms of hardening these 
sites.
    Let me just----
    Mr. Wilson. Chairman Langevin, if I could maybe just add 
on, the DOD has a very active role alongside DHS as well, both 
domestically and internationally. And so we work with industry 
partners, but domestically, especially with DHS, to understand 
what information flows are moving through, so from a command 
and control perspective or communications flow to our forces to 
do assessments, and to understand that we have enough capacity 
and diversity of undersea cable, you know, capability to be 
able to execute our DOD missions.
    To go into more detail, I probably need to go into a 
classified session, but just to make you aware that we have a 
very active relationship alongside our interagency partners, 
very tied to our mission and execution of the DOD missions 
around the world. So it is more of an international 
perspective.
    Mr. Langevin. Thank you.
    I believe my time is expired, so I am going to stop there. 
We are going to have some follow-up questions I would like to 
submit for the record, and I ask you to respond to those. And, 
with that, I believe votes have been called.
    I am going to yield to Ranking Member Stefanik and, 
hopefully, we can get through her questions.
    Ms. Stefanik. Great.
    Given the complexities of the ecosystem that we are talking 
about today, I want to focus on supply chain security and 
integrity, which many of you referenced in your opening 
statement. I would like to understand in more detail, given how 
complex the global telecommunications supply chain already is, 
combined with emerging technologies like 5G, Internet of 
Things, even cloud computing, how are you specifically 
improving our supply chain security? Ms. Rinaldo, I will start 
with you. That is question one.
    The second one is, are there any specific technologies you 
are more concerned about than others in securing our supply 
chain; and specifically, what collaboration needs to happen 
with industry and the private sector? So, Ms. Rinaldo, I will 
start with you.
    Ms. Rinaldo. Great, thank you. As you may know, on May 15th 
of this year, the President issued Executive Order 13873, 
securing the information and communications technology and 
services supply chain, which gives the Secretary of Commerce 
IEEPA [International Emergency Economic Powers Act] authority, 
emergency powers to act on national security concerns with the 
implementation of infrastructure into our telecommunications 
networks.
    This is something that NTIA is working with the Secretary's 
office on. We are currently developing the interim-final rule 
of the regulations on how this process will work out. We 
believe that we are on track to have that delivered to the 
President the middle of October.
    But as well, through our multi-stakeholder processes, which 
we are probably most known for, is an opportunity for us to 
meet with technologists, policy makers, academia, civil society 
to talk about these important issues. The thing that I really 
love about NTIA is that we are able to pull back to the 50,000-
foot level and look, and then hone in on certain issues and go 
down and tackle certain concerns or issues. And this is the 
format that we use.
    So we talk about vulnerabilities. We are currently working 
on the software bill of materials specific to supply chain. We 
definitely have concerns moving forward, especially as we move 
to fifth-generation technologies. And I think it really gives 
us an opportunity, as we talked about, is it, you know, baked 
in or bolted on, that it gives us the opportunity to bake in 
security as we move forward.
    Ms. Stefanik. Ms. Manfra.
    Ms. Manfra. Yes, ma'am. I will just touch high level, and 
then we can--always happy to come back and go in more depth. 
There is a lot to talk about on supply chain.
    As Diane noted, around the Executive order, that is a key 
component of the administration's approach, we at CISA have 
also stood up an ICT Supply Chain Task Force, which is mostly 
made up of private sector, but also colleagues across the 
government, to focus on what are the most important things that 
we can actually make progress on, what are the tangible things 
we can do. And they have been working along a few of those 
lines, particularly around procurement, government procurement, 
which, to segue into what we are doing for government 
procurement, following up on the law that was passed last 
December around Federal acquisition security and supply chain 
chaired by Grant [Schneider], but an interagency body to look 
at how do we reform and modernize our Federal procurement 
system to ensure that we are taking mission risk, I will call 
it, into account when we are procuring and maintaining IT 
[information technology] products and services.
    So those are some of the things that we are doing. Specific 
technology, I would say it is not necessarily a specific type 
of technology that is concerning. What we have, really, from a 
DHS perspective is we really think of it as a framework that 
started with our experience in Kaspersky, but that you have to 
really look at where is this product or data being held, what 
are the laws of the country that mandate how that data or 
products are treated, but you also have to look at what is the 
level of access that that piece of software, or that piece of 
hardware, that somebody would be able to gain access to. And at 
various pieces of software, you have tremendous access into a 
computer.
    So that, combined with a country's laws that we have 
concern about that would compel access, those things together 
are what would cause us concern. So we are looking at a lot of 
things and across the government is how do we understand things 
like foreign ownership and controlling influence? How do we 
understand what that means to risk? But looking at it through 
that framework. And then, of course, what would always be the 
consequence, that somebody who had that access and those laws, 
is there any sort of significant consequence? So it is less 
about the technology and more about the context that that 
technology lives.
    Ms. Stefanik. My time is expired. Mr. Wilson, I will take 
yours for the record since we have expired.
    I yield back.
    [The information referred to was not available at the time 
of printing.]
    Mr. Langevin. I thank the ranking member. So votes have 
been called. We are going to recess at this point. We will 
return right after. There are three votes, so hopefully we will 
get through those quickly and we will come right back, and then 
Chairman Lynch will be up next for questions.
    The committee stands in recess.
    [Recess.]
    Mr. Langevin. The subcommittee will come to order. I will 
next recognize the chairman of the Oversight and Reform 
Committee, National Security, Mr. Lynch.
    Mr. Lynch. Thank you, Mr. Chairman. Again, I really 
appreciate your willingness to come here and help us grapple 
with these problems. Recently, I have had groups ask to meet 
with me about the need for more funding from the government for 
infrastructure security. And when you sort of look at the 
landscape here, you know, you have Facebook and Apple and 
Google and other private sector players that have a major role 
here, and that have an intense investment, I think, in 
maintaining security themselves.
    Do you think there is a significant role here to play in 
funding the necessary improvements to our infrastructure on the 
part of, you know, internet companies, including mobile banking 
and others, much the same way that, you know, we have a gas tax 
for the users of our roads and highways that goes into the 
transportation trust fund and helps with an enormous part of 
the funding for that infrastructure?
    Have you thought about this from a funding side in terms of 
how we have to continually maintain the integrity of the 
internet architecture, and in a way of doing that over the long 
term? So I would offer it to the three of you, if you have 
thought about this aspect of it. Ms. Manfra.
    Ms. Manfra. Yes, sir, I can start. Yes, the funding 
question is something we grapple with in a lot of areas. I will 
say, when you are talking about those companies that provide 
the internet architecture, the ecosystem that we are talking 
about, as you noted, they have a lot of economic incentives to 
have a secure and reliable infrastructure. So I don't know that 
we have considered sort of funding those organizations. They 
are also doing very well, as I understand it, and have a fair 
amount of funding. There are other elements when you get into 
State and local organizations and others that I think is a 
separate conversation.
    I will say when we think about how the government could 
provide resources in this space in either complementing private 
sector investment or driving change, it would be in the area of 
standards and research and development. In how do we think 
about--what sort of--there are some standards bodies, there 
could potentially be new standards bodies, or existing ones 
that evolve, to think about things like 5G, and as our, kind 
of, overall internet architecture evolves, the government 
thinking about how do we participate in that process either 
through resourcing or participation.
    And, importantly, I think in research and development, how 
do we think of new ways to build more resilient infrastructure, 
both resilient from a physical perspective and a cyber. So 
those would be the areas that we have most thought about the 
funding.
    Mr. Lynch. Thank you. Ms. Rinaldo.
    Ms. Rinaldo. When you look at the ecosystem as a whole, 
most private companies underpin the internet architecture. So 
what added benefit can government bring them to help move the 
ball? At NTIA, we currently work with the private sector 
through our webinars. We have a broadband group that actually 
reaches out to rural areas to talk to local providers on how 
can we help them improve their security and their resiliency.
    We work through the American Broadband Initiative, which 
the President initiated last year. We lead that on behalf of 
the government, to, again, have these conversations on how can 
we as a government help improve security and resiliency? And 
one of the things that we hear back is information sharing, 
something as--Chairman Langevin, we talked about just before 
the hearing that I have been working on for a very long time. 
What information can we pass as a government to local 
providers, to vendor manufacturers, to ensure that they are 
getting the quality of information to help them protect their 
products that are being implemented throughout the supply 
chain?
    Mr. Lynch. Thank you. Mr. Wilson.
    Mr. Wilson. I would just echo. I think when we look from a 
DOD perspective, we look for the nexus when it revolves around 
national security. And so, we are very active in standards 
boards, not just domestically, but globally, associated with 
the internet. In addition, we look at capability that could be 
brought to bear from a DOD perspective.
    We are very active in the research and development, it was 
highlighted in the introductory comments, the defense--the 
DARPA team. Also, our service laboratories, and I would also 
have to tip my hat to the Department of Energy lab environment. 
They do some great work in this arena. There is a lot of 
partnering that goes on to bring innovation to the game--to 
this table in terms of solutions. To be really a catalyst for 
change. And there is several different----
    Mr. Lynch. What about cost sharing, that is what I am 
asking. From the private sector, you know, they are the major 
beneficiaries, these private companies that are, you know, 
hugely successful.
    Mr. Wilson. Uh-huh. So in the Department of Defense, we use 
a vehicle such as cooperative research and development 
agreements with industry partners, really a sharing of either 
personnel in intellectual property as well as resources. So we 
may have a range in the Department of Defense where we can do, 
you know, experimentation, et cetera. So we use several 
different vehicles along those lines to be able to get after 
high-priority requirements.
    Again, we look for the national security nexus when it 
comes to research and development standards, et cetera.
    Mr. Lynch. Okay. Thank you very much, Mr. Chairman. I yield 
back.
    Mr. Langevin. Thank you very much. And Mr. Hice--
Representative Hice is now recognized.
    Mr. Hice. Thank you very much, Mr. Chairman. Mr. Wilson, 
while you were talking, we will just keep going here. About 
this time last year, the Department of Defense released a cyber 
strategy where it was highlighted the need to conduct 
cyberspace operations. It is very intriguing to me, and 
specifically to determine and to make sure that we are able to 
maintain our U.S. military advantage, and at the same time, to 
defend our national interest.
    And in an interesting quote, and also, quote: To prepare 
military and cyber capabilities to be used in the event of a 
crisis or conflict. Those three areas are extremely important 
to me, and I know in my own district, Fort Gordon, the Cyber 
Center of Excellence resides there and they are very much 
involved in all three of these areas.
    Obviously, without going into classified information, but 
would you be able to share some of the specific actions that 
the Department has taken in light of that cyber strategy to--
just some insight on how things are going to protect our 
infrastructure?
    Mr. Wilson. Absolutely. So in August of last year, the 
Secretary signed, Secretary Mattis at the time, signed out the 
DOD Cyber Strategy. Some very core missions. Number one being 
the ability to operate DOD joint force. So kinetic forces 
alongside all the other forces in a cyber contested 
environment, to be able to build resiliency into our joint 
force. That was priority one from Secretary Mattis' 
perspective.
    In addition, we wanted to be able to bring cyber effects 
operations, defensive and offensive, alongside our normal 
kinetic operations. And so, we have been hard at work at doing 
that. We have worked with Congress, with authorities, to be 
able to execute in that arena. We usually are pretty--we do 
some really good work in the area of hostilities in competition 
with the revisionist powers we have seen, that they are 
operating below our normal traditional response mechanisms. And 
so, we have been very focused on that, so the strategy 
addresses that.
    Down at Fort Gordon, they are doing some great work, 
Lieutenant General Fogarty and team, in terms of--that is the 
ARCYBER, the Army Cyber team. They are focused right now in 
CENTCOM [U.S. Central Command] theater, AFRICOM theater, the 
Africa Command, doing some fantastic work.
    When it comes to critical infrastructure, there was a 
recognition that the Department of Defense had a role. And I 
think if you had asked us maybe 2 or 3 years ago, it wasn't as 
clear. We brought a strategy forward called the ``defend 
forward.'' We focus in the Department, just like we do in any 
other domain of operations, on external threats to the Nation, 
and so in cyberspace we do the same things. We focus on those 
external threats. We want to be able to see those threats, 
understand those threats, see indications and warnings if there 
is attack on critical infrastructure for the Nation, or DOD 
forces or allies. And we want to be postured and prepared to be 
able to respond to those attacks; preferably in a preemptive 
fashion, if needed, versus waiting to take a strike and then 
have to be----
    Mr. Hice. Would you believe--how are we doing is kind of 
what I want to know. Are we prepared offensively? Are we 
prepared defensively? Are we prepared in the event of a crisis 
here? I mean, where are we on these three areas? On a scale of 
1 to 10, I mean, are we----
    Mr. Wilson. So it depends on which category, and it is best 
done in a classified setting, but maybe I can put a backdrop 
behind it. We are making tremendous progress. Over the last 
year, we have executed operations which we have briefed in the 
Armed Services updates, and we are getting ready to do one here 
shortly, across different--several different mission types. And 
so, that is going very well on the offensive side.
    On the defensive side, we are building tremendous 
resiliency in the force; we have a long way to go. So, if you 
are talking about the network, we have tremendous activity 
going on end point security zero trust environment, and the 
team is doing really good work. We also have activity going on 
associated with weapons systems to make them more resilient. 
And then we are beginning to look at defensive cyber effects 
operations broadly to be able to mitigate risk to the best of 
our ability.
    Mr. Hice. Okay. Well, Mr. Chairman, I don't have time to 
get into the next question, so I will go ahead and yield back. 
Thank you.
    Mr. Langevin. Thank you. Mr. Kim, I recognize you for 5 
minutes.
    Mr. Kim. Thank you, Mr. Chairman. I thank you so much for 
being here and being able to have an interagency discussion 
about this. I would like to just hone in on just some of my 
understandings about some vulnerabilities and try to get a 
better sense of how different agencies and departments are 
honed in on this.
    A concern that we have is certainly about the different 
nodes in which the information is coming to us through internet 
exchange points. We have one in New Jersey and we understand 
some of the vulnerabilities that come with that. When 
information is being transmitted through, let's say, the 
undersea cables, through the internet exchange points, I, from 
my understanding, is that the undersea cables is something 
under the jurisdiction of DOD. The internet exchange points are 
ones under the jurisdiction and oversight of DHS.
    So I guess my understanding is how do we structure the 
preparations or the coordination that is involved in that to 
try to understand if we were to have any disruptions along 
those points that we can understand what role different 
agencies and departments play? Are there particular exercises 
that are being done? Are there other ways that we can 
understand who all is engaged, because from what I understand, 
it's lots of different departments and agencies and offices 
that are involved in that type of process.
    So if you don't mind, I would love to just hear from across 
the board what we can be doing on that front, and who are the 
main actors that need to be at that table?
    Ms. Manfra. Thank you for the question, sir. I don't know 
that I would use the term ``jurisdiction.'' You know, we 
don't--I wouldn't say we have jurisdiction over internet 
exchange points, and I would defer to DOD, but I don't think 
they have jurisdiction over undersea cables. What it is more 
is, we have some interagency bodies, such as Team Telecom and 
things like CFIUS [Committee on Foreign Investment in the 
United States], other sort of bodies where we work together, 
our three agencies plus others, to understand the risk and make 
decisions, and are able to intervene, if necessary, in market 
decisions in those particular cases.
    In other areas where there is not a specific investment or 
acquisition happening, we continue to work together. You know, 
once you start getting further beyond the borders of U.S. 
waters, obviously, there are others who start to have insight, 
but we recognize the connectedness of that. So specifically on 
undersea cables, we worked with the DNI, 2 years ago, issued a 
report on threats to undersea cables, working very closely with 
the DOD, DNI, and others to both better understand the threat, 
but then on the DHS side, given sort of our authorities and the 
public private partnerships, what can we do to counter that 
threat, build more resilience, and, of course, DOD has 
capabilities to use those tools as well as NTIA.
    So it is not so much that here is clear jurisdiction and it 
ends at this part of the internet architecture, and then the 
next person picks it up. It is really largely private sector 
led in all cases, and what we have are different tools to 
analyze and make assessments and take action if we have some 
concerns. Is there potential--more tools and better 
cooperation? Absolutely, we can always continue to improve the 
coordination, and that is why I think we have got those 
national critical functions focused on, you know, how is the 
stability of the internet overall? How are we focusing on that? 
What are those different mechanisms and those tools and those 
partners? That is how I would--I hope that is helpful.
    Mr. Kim. No, that is helpful. Any of the other witnesses 
want to jump in on this? Mr. Wilson.
    Mr. Wilson. From a DOD perspective, what we really focus 
and understand, try to understand the threat. So we work with 
the intelligence community, and then our own insights. Also, we 
do assessments so that we understand our reliance on cable 
landing sites or any type of infrastructure. And then we 
constantly are planning and coming up with contingencies. So 
based on that reliance, we want to understand if that is lost, 
in whatever fashion, however complex that looks like, our 
ability to roll off and conduct operations maybe in a minimized 
fashion with high-priority taskings. So that is a natural 
rhythm that we move through in our war plan and OPLAN 
[operations plan] activities. In addition, in our Tier 1 
exercises, we do exercise in the loss of critical 
infrastructure, which might include cable landing sites or 
other undersea cables; that is a normal battle rhythm of 
activity that we look at.
    Just, I would point to maybe day-to-day. We do have--there 
is just, you know, anchor drags and cable losses, and so just 
naturally, we see in a day-to-day fashion the loss of 
capability, whether it is natural disasters or man-made 
calamities out there under the sea, we see that happen on 
occasion on a very routine basis. And so we are constantly 
having to already do this for a living, if you will, to 
maintain mission.
    Mr. Kim. Yeah.
    Mr. Wilson. So we gain a lot of insight, and we do a lot of 
after-actions and lessons learned, based on those experiences. 
And so a pretty deep well of knowledge there and we share and 
work hand in hand with DHS. We have natural rhythms. They see 
our tasking orders, we share that from a cyber perspective.
    Mr. Kim. Well, thank you for your insights. Mr. Chairman, I 
yield back.
    Mr. Langevin. Thank you, Mr. Kim. Mr. Banks is recognized.
    Mr. Banks. Thank you, Mr. Chairman. I think we all agree as 
the DOD moves toward an increasingly internet-integrated 
warfighting posture, it is critically important to identify 
vulnerabilities in software and hardware within the DOD 
network.
    Mr. Wilson, as identified in DOD's 2019 Digital 
Modernization Strategy, DOD utilizes 10,000 operational IT 
systems. I am concerned about the number of access points 
within the DOD network. Does DOD have a complete inventory of 
all items that can access the network?
    Mr. Wilson. Today, the answer would be we do not. We are 
driving very, very diligently to have insight and to be able to 
see. We have several modernization efforts and several 
initiatives underway, end point security and visibility being 
the number one. So that we have visibility to all those end 
points. Ten thousand end points, sir, would probably be a low 
estimate.
    So when you just look at end users out there, given we have 
several million people inside the Department of Defense, that 
number is much higher than that. And so, we need to be able to 
have visibility to be able to mitigate risk. And so step one 
has been insight, and end point security initiative that has 
been underway. We are really driving hard. We are getting 
tremendous traction alongside the services and our Fourth 
Estate in the DOD enterprise.
    In addition, we have an initiative underway called Zero 
Trust where we are driving, so that we validate and limit the 
movement so if something is exploited inside the network, that 
we contain that to the best of our ability. So Admiral Norton 
and the DISA [Defense Information Systems Agency] team are hard 
at work on that alongside the service components. And so, it 
has been a high-priority task. The deputy is taking reviews on 
all of these initiatives plus more on a very routine basis, so 
the sense of urgency is high on this one.
    Mr. Banks. Good. Ms. Manfra, you testified that the CISA 
works across government and industry to ensure the national 
security and the emergency preparedness community has access to 
priority telecommunications and restoration. Are government 
agencies able to keep up with industry in issuing security 
updates?
    Ms. Manfra. I think much of what we use is industry 
products. So it is more about ensuring the behavior that people 
are actually, if you are referring to patching and those sorts 
of things. We have had a lot of work that we have done around 
this to focus behavior on those types of things. Are they 
patching vulnerabilities that are identified? And we have 
actually made a tremendous amount of progress.
    I think we--I think we are able to keep up with them. In 
some cases, we are actually leading industry. There is work 
that we have done under one of our directives to improve web 
and email security, and the government went from least secure 
by an independent auditor to actually leading all industries in 
the security of our websites.
    So I think that there is--and I think that is what we need 
to be doing. We should be not just talking about it, but 
actually leading and putting these things in place. But it is a 
mix of behavior and resource. Sometimes there is technical 
challenges and we work with agencies in particular to assist 
them on that.
    But if that is getting at your question.
    Mr. Banks. Yes. Mr. Wilson, back to you. How does the role 
of the CIO [Chief Information Officer] coordinate with the DISA 
regarding the responsibility of the DOD IT security?
    Mr. Wilson. So the DOD CIO, by statute, has responsibility 
for the standards and technology and the fielding of 
capability. DISA is their operations arm. And so, DISA has 
purview, and there is two roles, organizing, training, and 
equipping alongside the services, all of our IT fielding.
    In addition, the DISA commander, Admiral Norton, also wears 
what we call the Joint Force Headquarters commander hat for the 
DODIN, the DOD Information Network. So in that role, she is 
able to direct activity in terms of orders out to the DOD at 
large. And so that kind of is the arm that is able to execute 
operationally day to day to mitigate risk. If there is an 
incident, to be able to harness the power of the Department at 
large and be able to mitigate that risk, to be able to drive 
initiatives like the Zero Trust activity that I just 
highlighted.
    So DOD CIO is responsible statutorily for the Department in 
terms of standards and compliance. And then the operation arm 
is DISA that reports up through the DOD CIO.
    Mr. Banks. Okay. Thank you very much. I yield back.
    Mr. Langevin. Thank you. Mr. Higgins is now recognized.
    Mr. Higgins. Thank you, Mr. Chairman. Ladies and gentlemen, 
thank you for being here this afternoon. I have two questions. 
One is very basic and the other is rather not. So let's handle 
the basic question first. How do you ladies and gentlemen feel 
about securing our undersea submarine cables that transmit most 
of our signals? How do you feel about that? Where are we right 
there?
    Ms. Manfra. Well, sir, I would argue that----
    Mr. Higgins. It has been identified as an area of potential 
threat.
    Ms. Manfra. Yes.
    Mr. Higgins. And this could disrupt internet services 
globally, and have serious economic impact, and perhaps 
military implications, communications, et cetera. So without 
getting into the weeds or revealing anything that shouldn't be 
spoken of, what is your opinion? Is there more that should be 
done and could be done?
    Ms. Manfra. Yes, sir. This is a high priority for us, both 
my agency and those here, as well as others that aren't 
represented, and we are very focused on this. And, yes, there 
is absolutely more that we will do and can do--is the short 
answer.
    Mr. Higgins. You concur, sir?
    Mr. Wilson. Yes. For the Department of Defense, it is core 
to what we do. And so I would just kind of maybe walk back 
through. One, we want to understand the threat against undersea 
cables in particular, because we are relying on them. Any time 
that the DOD is relying on any kind of capability, we want to 
understand the threat to it, where the vulnerabilities are, and 
then----
    Mr. Higgins. Those threats and vulnerabilities, in your 
opinion, are being addressed?
    Mr. Wilson. We understand the threat, and we understand the 
vulnerabilities. So the next is, how do you mitigate those 
risks? For us in the military, that would be an operations--the 
execution of our operations day to day. So we have a very 
robust effort that we continually look and assess undersea 
cables, because it is the crux of and we rely on it for lot of 
our communications----
    Mr. Higgins. So in the interest of time, and thank you for 
answering, please, just all of you, stay in very efficient 
communications with both of these committees, whereby we can 
give you anything you need because it would be a disaster for 
the world if those things got hit.
    So let's move to my question that is actually my concern. I 
am concerned about national security issues regarding 
protection from emerging technologies sponsored by nation-
states with global aspirations and strategies like China. 
Specifically, I am talking about quantum computing. We have a 
responsibility to protect the people's treasure, and, of 
course, we have a responsibility to provide national security.
    But are we talking about investing money on protecting ones 
and zeros, long streams of ones and zeros, when China could be 
on the verge of using entangled photons to communicate. They 
recently had this public data and satellite transmission to two 
separate land stations 1,200 miles apart, and achieved quantum 
entanglement successfully.
    A professor from LSU [Louisiana State University] in my 
home State of Louisiana, a physics professor that spends a 
large part of the year at the University in Shanghai, the 
Science and Technology of China university, stated that he 
believes China will go dark in 2 to 3 years, meaning we won't 
be able to--we won't be able to understand and read their 
communications. So if they reach a point through quantum 
computing before we do, because we are spending money on VHS 
tapes while the world moved to DVD, if they reach a point of 
quantum entanglement and quantum computing efficiently and we 
can't read them, then how would we know that they are reading 
us? Remainder of my time, please, whoever feels qualified to 
answer that question.
    Ms. Manfra. Sir, first, I would offer that I think us and 
potentially some other agencies would be happy to come in and 
have a longer conversation about this, both quantum computing 
and other emerging technologies are definitely top of mind, not 
just our agencies, but many others. And I would argue that the 
U.S. Government is investing a lot in ensuring that we continue 
to maintain leadership in this space. And while, yes, we 
absolutely have to----
    Mr. Higgins. So we can look forward to a SCIF [Sensitive 
Compartmented Information Facility] briefing on this?
    Ms. Manfra. Yes, sir, we will----
    Mr. Higgins. I would ask the chairman to consider that.
    Mr. Langevin. Okay.
    Mr. Wilson. And I would just add. I think quantum computing 
is at the core. Digital modernization at large, 5G, quantum 
computing, AI [artificial intelligence], large data or big data 
analytics, et cetera, are all converging. And so, in the 
Department of Defense, we see that as opportunity to field the 
right kinds of capability, both for productivity, but for 
effectiveness--mission effectiveness, but we also are looking 
at it through the lens of risk. So how do we mitigate that risk 
alongside our interagency partners?
    We have the challenge of low-end and high-end conflict. And 
so, we have a reliance and we are becoming more reliant on 
those capabilities, so it is of utter importance. But we would 
love to join----
    Mr. Higgins. Thank you. So we look forward to a more 
extensive briefing in a secure setting. Thank you, Mr. 
Chairman.
    Mr. Langevin. I thank the gentleman. Ms. Wasserman Schultz.
    Ms. Wasserman Schultz. Thank you, Mr. Chairman. Ms. Manfra, 
earlier this year CISA released a list of 56 national critical 
functions. You defined these as functions, quote, ``so vital to 
the United States that their disruption, corruption, or 
dysfunction would have a debilitating effect on security, 
national economic security, and national public health and 
safety.'' Is that correct?
    Ms. Manfra. Yes, ma'am.
    Ms. Wasserman Schultz. As it pertains to internet 
architecture, how does the identification of these 56 critical 
functions alter CISA's approach to protecting our Nation's 
internet infrastructure?
    Ms. Manfra. Thank you for the question, ma'am. What it does 
is more holistically defines what functions we are concerned 
about. So, previously, while it is important to continue to 
have these sector-specific approaches, but when we are talking 
to the IT community and the communications community, we felt 
it was important to narrow in a little bit more on what 
specifically. So are we talking about routing and addressing. 
Are we talking about the internet exchange point conversation 
and physical infrastructure that supports the internet.
    So we felt it was important to start to disentangle so it 
is not just all, here is an IT and communications broad 
structure. Industry already thought this way. It was really us 
sort of catching up. And we will now shift how we prioritize 
our resources and our engagements to ensure that we have the 
right people in the room and we are taking the right actions 
against those critical functions.
    Ms. Wasserman Schultz. Thank you. And how does this change 
CISA's outreach and coordination with the private sector and 
with your partners at other agencies?
    Ms. Manfra. What it really means is we were going to ensure 
that the right players are in the room. We have great 
partnerships with the IT and communications industries, but as 
we started to think about a functional approach, which is, 
frankly, the way the adversaries are thinking about it, we 
recognize that not all of the correct players were in those 
conversations.
    So, we want to ensure that the owners and the operators, 
the providers of services, are also a part of whether it is 
just information sharing back and forth so they can give us 
information about what may be going on, or we can provide them 
information. But also, they are part of this broader policy 
conversation when we are thinking about risks and what we want 
to do about it.
    Ms. Wasserman Schultz. Thank you. That list of national 
critical functions includes providing internet-based content 
information and communications services, and it also includes 
conducting elections. Is that correct?
    Ms. Manfra. Yes, ma'am.
    Ms. Wasserman Schultz. Of course, our internet architecture 
is connected to election security in many places across the 
country. So let me start by asking you a question that I have 
asked CISA Director Krebs multiple times since May of this 
year.
    Russia intentionally influenced our 2016 elections and is 
expected to try again in 2020. Has the President received a 
comprehensive briefing from CISA on potential Russian influence 
in the 2020 elections?
    Ms. Manfra. My understanding is the President has received 
briefings and continues to receive briefings on threats.
    Ms. Wasserman Schultz. No, no, I am asking you, has he 
received a comprehensive briefing from CISA on potential 
Russian influence in the 2020 elections?
    Ms. Manfra. He has not directly received a briefing from 
us, but he has received comprehensive briefings that we have 
informed.
    Ms. Wasserman Schultz. Okay. That is new information 
because as that--since the last time I spoke with Director 
Krebs where he said no, or he was not aware that--small 
briefings here and there, that is different than a 
comprehensive briefing, specifically given to the President of 
the United States, on Russia's desire and intention to 
influence the 2020 election. So since the last time I asked 
him, that comprehensive briefing for the President of the 
United States has taken place?
    Ms. Manfra. Ma'am, to be honest, I am not in the meetings 
where the President receives these, but I do understand that 
the President has received multiple briefings on----
    Ms. Wasserman Schultz. Okay. So essentially, you are giving 
me the same answer that Director Krebs--he has not, to your 
knowledge, had a comprehensive briefing from CISA on this risk?
    Ms. Manfra. We have not directly provided him with 
briefing.
    Ms. Wasserman Schultz. Okay. Okay. Are there plans to brief 
the President on this critical issue in a comprehensive way 
from CISA?
    Ms. Manfra. I have would have to defer to others on that.
    Ms. Wasserman Schultz. And, lastly, are you familiar with 
the Quadrennial Homeland Security Review?
    Ms. Manfra. Yes, ma'am.
    Ms. Wasserman Schultz. That is a critical document that is 
used for assessing the Department's overall security strategy 
and what it views as the most pressing threats to U.S. 
security, including threats to critical infrastructure. 
Congress mandates that DHS produce this review every 4 years. 
Can you tell me the last time DHS submitted a Quadrennial 
Homeland Security Review to Congress?
    Ms. Manfra. Off the top of my head, I can't remember the 
exact year.
    Ms. Wasserman Schultz. It is 2013 or 2014.
    Ms. Manfra. Okay.
    Ms. Wasserman Schultz. And the most recent version of this 
document was due to Congress in December 2017, but more than 20 
months later, DHS has not submitted this critical document. 
What is the status of the now long overdue 2018 Quadrennial 
Homeland Security Review?
    Ms. Manfra. Ma'am, I have to get back to you on that.
    Ms. Wasserman Schultz. Okay. If you could. The bottom line, 
Mr. Chairman, is not having an up-to-date Quadrennial Homeland 
Security Review makes it more difficult for Congress to 
evaluate DHS's strategy and coordinate with Federal agencies, 
which you very effectively answered on homeland security 
priorities, including our internet architecture.
    So I would ask that you take it back to your bosses that it 
is time to comply with the law. And if you actually take this 
issue seriously, making sure that this report is issued in a 
timely fashion is essential. Thank you, I yield back.
    Mr. Langevin. I thank the gentlelady. And Mr. Waltz is 
recognized for 5 minutes.
    Mr. Waltz. Thank you, Mr. Chairman. Ms. Manfra, obviously, 
DHS defends the homeland and defends our critical 
infrastructure here, including our internet infrastructure. And 
Mr. Wilson, DOD, in a number of briefings, has described its 
posture now as defending forward in both classified and 
unclassified briefings, and I have received a number of 
briefings on what those activities have entailed, particularly 
as it pertained to 2018 and our elections there.
    Is there any discussion in the Department--in the Defense 
Department, in particular amongst the interagency of moving to 
a deterrent strategy, rather than a purely defensive strategy, 
whether we are defending forward or defending the homeland. 
What I mean by that is, you know, to use as an analogy, 
terrorism.
    We cannot bat 1,000, so to speak, using a baseball analogy. 
At some point, we have to alter our adversary's decision 
dynamic, and I think some members have described it as perhaps 
blinking the lights in the Kremlin or holding their assets at 
risk. What is the Department, from a policy standpoint, are 
they moving that direction? Have you made a decision not to 
move that direction, and we take a purely defensive posture? We 
could talk across a number of domains, obviously, where we have 
a deterrent strategy to stop and try and alter the behavior 
rather than simply defend against it. Does that make sense? And 
I would welcome your thoughts.
    Mr. Wilson. Absolutely, sir. So last year, as part of our 
cyber posture review, we delivered a report to Congress, really 
hit two pieces. That was in early September. One was a holistic 
assessment of our ability to execute the missions as 
articulated in our DOD Cyber Strategy. So we did a gap 
assessment that is a classified report that we can make 
available.
    In addition, we were asked to do some work on deterrence. 
Specifically, deterrence in cyberspace. And so a couple of the 
key takeaways: One, we believe that deterrence comes in a few 
flavors, it is not just consequences. We think the first step 
is deterrence by denial. So we want to deny adversaries the 
benefit of what they are trying to achieve through a cyber 
effects operation, or any other type of activity directed at 
the U.S., our allies, or the Nation at large. And so, that is 
where you see the partnership between DHS and the other 
departments and agencies of the U.S. Government, where we have 
stepped in and began to assist, enable, support the resiliency 
of our critical infrastructure segments. Not just focused on 
DOD systems, networks, weapon systems, et cetera. So our focus 
is much broader because we do rely and we see the importance of 
denying an adversary the benefit.
    In addition, we look very hard at the ability, if called 
upon, to deliver consequences, not just kinetically, or in all 
the other domains of operation that the Department has, but 
also in the domain of cyberspace. And so, a lot of assistance 
from Congress with regards to some clarity on authorities. We 
have also in the strategy tried to articulate our role uniquely 
focused against external threats. And, in addition, the NSC 
team in the White House has led us and the interagency through 
a process with a new National Security Presidential Memorandum 
13, which focuses on the decision process for either offensive 
or defensive cyber effects operations. The details of that we 
would have to go into a classified session, but that has been 
in play and I think just----
    Mr. Waltz. I would like to follow up and better understand 
that. And then also, better understand how that has been 
communicated to our adversaries, because obviously deterrence 
is only effective if they understand the consequences.
    Mr. Wilson. Absolutely. So strategy, a clarity of 
authorities, and then the process for making decisions have 
been very key in the consequences part. In addition, we look at 
deterrence, really what I would describe as entanglement. So 
how do we entangle ourselves, or use and leverage one of our 
strengths as a Nation in the international arena?
    So how do we bring alongside our close partners and operate 
together, and make the complexity of a targeting problem for an 
adversary more difficult. And then, lastly, how do we 
strategically communicate any actions we are taking across as a 
whole of government, not just the----
    Mr. Waltz. Just in the interest of time, I will take that 
for follow-up. Thank you and we will reach out to your staff. 
Very quickly. Who has--I know there was a question earlier, and 
I apologize if I am repeating it, on undersea cables. Who has 
authority on--or who has responsibility for defending undersea 
cables that directly affect the United States, its ability to 
communicate in our economy and international waters? It is just 
not clear to me, and if anyone wants to send that for the 
record, in the interest of time, Mr. Chairman, I believe my 
time is expired, I would appreciate it.
    Ms. Manfra. I think it would probably be best if we 
followed up with more details.
    Mr. Waltz. Thank you.
    [The information referred to can be found in the Appendix 
on page 73.]
    Mr. Langevin. Ms. Stefanik.
    Ms. Stefanik. Thank you, Chairman Langevin. Mr. Wilson, my 
question is for you. With respect to helping secure our 
Nation's infrastructure and even responding to an incident or 
an attack upon our critical infrastructure, can you clarify the 
role that U.S. Cyber Command and U.S. Northern Command plays 
and the relationship between the two? What role does DISA play 
here? And are there clear chains of command so that these 
organizations and commands understand their particular role? 
Who is responsible for what? And then, how do they interface 
with DHS?
    Mr. Wilson. So if there is an attack on the Nation that 
involves kind of a multi-domain attack, so kinetic strikes 
against the Nation, NORTHCOM [U.S. Northern Command] has the 
point. They have the lead for the defense of the Nation. So 
from a supporting/supported relationship, NORTHCOM is point. If 
there are activities that would require a cyber effects 
operations, or any type of response, Cyber Command would be in 
support of NORTHCOM in those instances.
    If there is a unique, and it is a fairly contained, but 
very focused on a cyber security threat or activity, then there 
is a decision to be made, and in most cases, then we would look 
to Cyber Command to be the lead, and they would be the 
supported command, because it would be really contained within 
their purview, in direct coordination with and lots of 
communication and coordination so we are all on the same sheet 
of music.
    So that activity, we have exercised that on many occasions, 
and that is maturing. I think if you had asked just a few years 
ago, that was a bit cloudy. I think we are doing great work in 
that front. Our Tier 1 exercises is beginning to really mature 
those relationships and the command and control activity that 
goes alongside those.
    DHS is alongside in anything domestically along with FBI 
representation, and so, when required, if it is a domestic 
incident, there would be support either provided to DHS as part 
of our normal defense support to civil authorities, or DSCA 
roles, there is a mechanism to put that in play, and then we 
would institute that.
    Ms. Stefanik. Let me ask a more specific--let me use a more 
specific example. As we are heading towards 2020, obviously one 
of the focuses of every Member of Congress is making sure that 
we have secure resilient elections. And we are well-positioned 
to ensure that the lessons learned from 2016 in terms of our 
vulnerabilities that we are being offensive in terms of 
protecting our elections infrastructure.
    So in that case, you know, let's say there are cyber 
effects, how does that responsibility--can you go through that 
decision-making process for that particular example. So online 
election system as part of a critical infrastructure, who is 
responsible for what?
    Mr. Wilson. So we look at it through three really lines of 
effort, or lines of operation. The first is associated with 
election security infrastructure. So, in support of the DHS 
team, because they have purview, and so whether that is 
information, intelligence information sharing, activity 
directed at helping to secure, share any threats, any 
indicators of compromise, to make sure that the robust defenses 
that are in place to secure elections infrastructure. So that 
is kind of job one, if you will, for elections support.
    The second line of effort we have within the DOD, and 
General Nakasone is at the helm here, is associated with 
disinformation, or malign influence. And so, FBI has point with 
regards to disinformation associated with elections or any 
other activity in the United States as a law enforcement 
activity. And, so, likewise, the combined team of U.S. Cyber 
Command and NSA [National Security Agency] would provide 
support to the FBI in the form of information sharing, any 
intelligence indicators we may have alongside the intelligence 
community. So we are one of many that would be supporting.
    FBI does the vast majority of outreach to, like, social 
media to give them heads up that there is issues, that there is 
a threat associated with, you know, a malign actor, Russia or 
whoever, using social media to spread disinformation or try to 
sway the public as part of the elections, or just day to day.
    And then, the last would be if we are called upon as a 
Department of Defense to deliver consequences in any form, 
whether it be cyber effects operations or anything else, then 
that is wholly within the Department of Defense, and we have 
the procedures, ma'am, as you have been briefed on with regards 
to the process for approval on those as part of the NSPM-13 
[National Security Presidential Memorandum-13] process.
    And so, we have executed some of those in the past, as you 
have been briefed, I can't get into details in this forum. So 
we are postured to be able to execute those types of operations 
in the future from an offensive or defensive activity. At 
times, we may partner with international partners, like we did 
during the 2018 election, and close partners and providing 
support in that arena, in what we would describe as hunt 
forward as part of our defend forward construct.
    Those are the structures we have used that was very 
successful. We have gone in and looked at the after-actions and 
are tuning that, but we are well underway with all three of 
those lines of efforts for the 2020 elections.
    Ms. Stefanik. Yeah, I think fine-tuning that is going to 
continue to be important, because as you laid out, the 
infrastructure, the disinformation, and the third bucket, you 
have a lot of agencies who are in the mix, whether it is U.S. 
Cyber Command, NSA, DHS, FBI, so making sure that there is--
DOD--there is a holistic approach and an understanding of who 
is responsible, because oftentimes, the attacks, and we saw 
this in 2016, it was multifaceted, it checked multiple boxes.
    And thanks for the leniency. I yield back.
    Mr. Langevin. Excellent points. And it is one thing when we 
know the bad actor or what is coming; for example, we need to 
be prepared for the upcoming 2020 elections. And just as in 
2018, we had a whole-of-government, whole-of-nation approach, 
we will do that again, I am confident, in 2020. The American 
people should know that.
    It is the things that we can't anticipate coming up that--
this is well-harmonized and the left hand knows what the right 
hand is doing. So it is going to be well thought-out, and it 
becomes muscle memory going forward.
    Thank you, Ranking Member. Chairman Lynch is now recognized 
for 5 minutes.
    Mr. Lynch. Thank you very much. So we have about 2,600 
internet companies, and I think there are no less than 90 
undersea fiber cables that feed both the United States and its 
territories. The trend has been that those cables are clustered 
on a select number of landing stations. Is that clustering 
effect, even though it creates redundancy, I guess, because you 
got all these cables, which is good, the redundancy is good, 
but the vulnerability that that prevents is--excuse me, that 
that presents, is that a problem for us? Ms. Manfra.
    Ms. Manfra. I would say----
    Mr. Lynch. And by the way, the maps that show the cable are 
all publicly available, so I am not giving up any----
    Ms. Manfra. No, you are not, sir.
    Mr. Lynch [continuing]. National secrets there.
    Ms. Manfra. Most of what we actually see in the risks for 
some of the co-location and consolidation comes from natural 
hazards or accidents.
    Mr. Lynch. Okay.
    Ms. Manfra. And now that does also mean that other threats 
could potentially take advantage of that, and we have done--
usually we are working jointly with the FBI, working to, you 
know, understand, do physical security assessments of those 
cable landing stations, helping the owners of those--of that 
particular infrastructure, improve both their physical security 
and the resilience, as well as----
    Mr. Lynch. Okay.
    Ms. Manfra [continuing]. Kind of how it gets passed from 
the cable landing station into sort of the rest of the internet 
ecosystem. So there is some--there is definitely concern around 
some of that consolidation, but it usually manifests itself 
when you have, say, a hurricane or something like that. So they 
have already built a lot of resilience into that to combat some 
of these natural disasters.
    Mr. Lynch. Okay. Let me just rephrase the question a little 
bit more generally. Do you repeatedly and continuously monitor 
and do threat assessments on individual aspects of our internet 
architecture?
    Ms. Manfra. Yes, sir, we do.
    Mr. Lynch. Once a year? Is that what we do it?
    Ms. Manfra. It depends. We do probably--I don't know that 
we would do any of them once a year. Many of these would be 
assessments that, ideally, they could use for multiple years, 
and would offer multiyear approaches to improving some of the 
security. But in some of the areas where we have maybe 
identified some weaknesses, or perhaps we have some threat 
intelligence that they may be a target, we do prioritize 
engagement, and we will continue to elevate the prioritization 
of those. I think this is really in the last few years that we 
have started to prioritize this.
    Mr. Lynch. Speaking very generally, what keeps you up at 
night? What do you worry about most when we look at the whole, 
you know, the scheme of our internet architecture? What do you 
think--and, again, being sensitive to the nature of the 
question, what do you think we should be doing to, you know, 
better protect ourselves?
    Ms. Manfra. When it comes to internet architecture, I think 
increased visibility, and working with those companies and 
ensuring resilience. There is a lot of talk about security, but 
I think resilience in this space, and it is already something 
that the community understands.
    So having a lack of resilience, and whether that is through 
market pressures or others, would be a concern in that somebody 
could take advantage of that, and you would have single points 
of failure. I am not saying that we have that now, but that we 
would get to a point where we did, and the adversary would be 
able to have real, you know, catastrophic consequences as a 
result.
    Mr. Lynch. So the redundancy aspect of it, in many cases.
    Ms. Manfra. Oftentimes, resiliency through redundancy. 
There are other mechanisms for resiliency, but yes, redundancy, 
I think, is important.
    Mr. Lynch. Okay. Thank you very much.
    I will yield back.
    Mr. Langevin. Thank you.
    And on that point on the redundancy and the resiliency, 
obviously, things happen. There are physical failures. We 
talked about the anchor drags, and so, it is not the first time 
that a node has been damaged. And how quickly, give us a sense 
of how that can be reconstituted, or you have that resiliency, 
so you have another way of performing the same function through 
some other mechanism. And with that, also, how many points of 
failure then become on the scale of more catastrophic or 
serious, where resiliency is harder, and it takes longer?
    Ms. Manfra. I will take a stab at that, and then I can--so, 
it is hard to provide sort of one answer to that, because I 
think it depends on which part of it you are talking about. 
When you are talking about submarine cables, cable landing 
stations, internet exchange points, that part, you know, that 
is a knowable universe of who owns that; and so, it means it is 
also a little bit, I think, simpler, in terms of who we are 
engaging with and how we improve the security and the 
resilience.
    You know, I think we have identified some really good best 
practices. And, honestly, industry has really led largely 
through telecommunications companies needing to build 
resilience in hurricanes, or whatever. So they have created 
mutual assistance agreements, essentially, in terms of when you 
are thinking about roaming. And if one company can't handle a 
customer set, because their infrastructure has gone down, they 
have agreements in place. And they have been doing this for a 
while. I think that is starting to evolve in broader than just 
these TELCOs [telephone companies], and that is something that 
we definitely welcome and want to encourage.
    You also have to think about as the market is sort of--
there are new players now coming into the market that didn't 
typically have cable landing stations or submarine cables. So 
how do we kind of think about these different market players, 
whether that is providing mutual assistance or the government 
ensuring that we prioritize?
    We learned about this, whether it was, you know, Puerto 
Rico, Virgin Islands, some of these significant events in the 
Caribbean that had impact to critical nodes of our 
communications infrastructure. How do we ensure that working 
with FEMA [Federal Emergency Management Agency], that we are 
prioritizing the restoration of those services or we are 
helping industry prioritize the restoration of those services?
    Ms. Rinaldo. I think we often hear that the internet was 
not built with security in mind, but it was built upon to be 
resilient, and it is very resilient.
    You know, a couple of things: With a routing cable, if 
there is a glitch, it can reroute traffic. It does reroute 
traffic. For the DNS system, DNS--NTIA represents the United 
States at ICANN [Internet Corporation for Assigned Names and 
Numbers] on these issues. We lead the DNS Interagency Working 
Group. There are the authoritative route servers, but there are 
also more than 1,000 route server instances, or anycasts, that 
are distributed all throughout the world. And this is done for 
security, for stability. It is done for the consumer.
    So there are many instances that resiliency has been built 
into the system, and even to this day, we keep building and 
making sure that the system remains and is stable, because it 
is such a driver of our economic lives in this country as well 
as how we operate.
    Mr. Langevin. Mr. Wilson, do you have anything to add on 
that?
    Mr. Wilson. Chairman Langevin, I would just add that, you 
know, just based on experience, the answer is it depends, in 
terms of a cable outage. If there is a cable outage at sea and 
you are, you know, a 2-day steam out to, you know, fix that 
cable, the diversity and the resiliency of the architecture can 
work around that.
    As cables converge and if there is an incident like in a 
harbor or something, that may have more consequential outcomes. 
However, it is closer, so the remedy is typically quicker. In a 
lot of cases, it is just a physical restoration of services.
    So the answer is, it depends. It can be very quick, a 
matter of hours. It can be several days, if not more, depending 
on the location and the type of fix action that is required. 
But I would just echo that these systems are built with 
resiliency.
    Chairman Lynch, to your question, what is the threat? I 
think it would be the miscalculation of an adversary that is 
trying to seek or take--seek an outcome. It miscalculates with 
regards to how they go about doing it, the WannaCry-like 
incident that maybe has much more implications, worldwide or 
globally, than what an actor would have anticipated. That is 
what, I guess, keeps me up in the middle of the night.
    Mr. Langevin. So I want to just go back to the role of 
CYBERCOM and NORTHCOM in defending physical sites that are part 
of the internet architecture ecosystem. Do you have that worked 
out? And we have kind of touched upon that, but who has primary 
responsibility in defending those sites?
    Mr. Wilson. So for the Department of Defense, we have very 
good knowledge about which systems we rely on. We have good 
plans in terms of mitigation with regards to moving to 
secondary or tertiary capability, whether that is cable systems 
or whatever portion of the architecture.
    When it comes to defending--most of these are owned and 
operated by commercial vendors, in terms of these heavy-haul 
systems that we are talking about. So defending is a bit of a 
different question. It is the resiliency that is built in. But 
we understand our reliance, and if we need to take action to, 
if it is not happening naturally, is to be able to bring online 
other systems.
    Many times for the Department, that may be prioritization 
of mission. In other words, we may have to go without that 
broadband or that very large bandwidth support in terms of 
comms. We may have to go to a much more minimized posture. We 
understand how to do that, and we have moved to that 
contingency action, set of actions. That is part of how we do 
business day in and day out.
    Mr. Langevin. Thank you.
    I guess the last question that I will have is for Ms. 
Rinaldo. Given NTIA's role in international standards bodies, 
can you speak to how this issue is viewed by other countries 
and your international counterparts?
    Ms. Rinaldo. Thank you for the question. Yes. We represent 
the United States at ICANN, as well as we are very active in 
standards bodies 3GPP [Third Generation Partnership Project], 
IETF [Internet Engineering Task Force], as well as others, ITU 
[International Telecommunication Union], which is the 
telecommunications arm for the U.N [United Nations]. We have 
great allies around the world. We coordinate with them often. 
We coordinate with them through different conferences as well 
as bilats throughout the course of the year. We want to make 
sure that as we face threats to our infrastructure, threats to 
the networks, that we are speaking with one voice and making 
sure that we are pushing back.
    There are more of us than them, so we want to make sure 
that we continue these conversations, so when foreign 
adversaries do pose threats, that we keep having those lines of 
communication open. And these four that do occur around the 
world, it is an amazing opportunity to not only exchange notes, 
but to further deepen those bonds.
    Mr. Langevin. Thank you.
    With that, Mr. Higgins is now recognized for 5 minutes.
    Mr. Higgins. Thank you, Mr. Chairman.
    Mr. Wilson, if a United States Navy ship is fired upon by 
an identified approaching vessel, an aggressor, do we return 
fire?
    Mr. Wilson. There are standard rules of engagement 
regarding----
    Mr. Higgins. Yes, sir.
    Mr. Wilson. Absolutely.
    Mr. Higgins. If a soldier in a theater of engagement is 
fired upon by an identified aggressor, do we return fire?
    Mr. Wilson. Yes.
    Mr. Higgins. Ms. Manfra, do you see the comparison? So 
please explain to America what the difference of our policy is 
when we come under cyberattack, our policy regarding preemptive 
attack, or our policy regarding return fire. If the aggressor 
can be identified, there is a growing consensus on the part of 
that group that if we can identify these guys, why don't we 
strike back?
    Ms. Manfra. Well, sir, I think the Department of Defense is 
doing a lot of work to be well-postured and to do just that. I 
think it is important, though, to not conflate every cyber 
incident as having the same consequences, shooting on one of 
our sailors or soldiers.
    Mr. Higgins. Why not? If we come under cyber fire, why 
would we not return cyber fire?
    Ms. Manfra. I would say two things: Cyber fire, it could 
often just be a--it could be a data breach. I would argue that 
that is not an act of war. That is why we focus so much on the 
consequences.
    Mr. Higgins. Well, let's talk about that with America for a 
moment.
    Ms. Manfra. Okay, sir.
    Mr. Higgins. If a database--let's refer to it as that--
comes under missile attack, is that an act of war? If it is 
destroyed by a missile that is an act of war, but if it is 
destroyed by cyber, that is not? These are legitimate 
questions.
    Ms. Manfra. A very legitimate question, sir, and one that a 
lot of people are thinking very hard about. I just--I would 
say----
    Mr. Higgins. Let me compare it to sniper fire.
    Ms. Manfra. From my perspective, sir----
    Mr. Higgins. Like returning sniper fire, very targeted 
return fire.
    Ms. Manfra. We have a long history of defining what it 
means to escalate and to have an act of war. And the digital, 
sort of, modernization of our economy has forced us to think 
differently about that. I don't want to suggest that we are not 
returning fire when we are attacked. I only mean to suggest 
that it is important to understand what the consequences are 
that they are achieving and that we use the right tools.
    It is not always necessary to return a cyber fire, as you 
said, sir, with a cyber gun. There are many other tools that 
the government has and does use, but I think one of the things 
that I am proudest of is the work that we are doing with DOD to 
ensure that both of us are postured and positioned to not only 
defend what we can domestically, but so that DOD is better 
postured to take such actions.
    Mr. Higgins. Very well. That was an intelligent answer. Let 
me just close by saying that America is not accustomed to 
hiding when we come under fire. And Americans watching right 
now, they think we are returning fire, and we are largely not, 
not to the standards that it is common knowledge that if a Navy 
ship comes under fire, that other ship is about to get 
something back.
    Ms. Manfra. Yes, sir.
    Mr. Higgins. If a soldier comes under fire, we are going to 
return that with superior fire and training. But cyberattack is 
legitimate, is dangerous. It threatens our commerce, our 
industry, our grid, our internet infrastructure, our military, 
our financial institutions. It is certainly a legitimate 
threat. We are talking about it today. And America expects us 
to return fire.
    Ladies and gentlemen, sir, thank you for being here today.
    Mr. Chairman, I yield.
    Mr. Langevin. I thank the gentleman.
    I want to thank all of our witnesses for your testimony 
today. Members may have additional questions, and we would ask 
that you be responsive in answering those questions and 
submitting them to the committee.
    Again, I want to thank you for the important topics we have 
discussed today. The answers--obviously, this is going to be an 
ongoing dialogue. It is something we have to pay continued 
attention to. I also just want to thank Chairman Lynch and 
Ranking Member Stefanik and Ranking Member Hice for their 
participation and support of this hearing.
    I yield to Mr. Lynch for any final comments that he would 
like to make before we adjourn.
    Mr. Lynch. I think these witnesses have suffered enough. I 
think we should probably let them go.
    Mr. Langevin. Very good. I thank you all for being here and 
what you do on behalf of the country.
    This meeting stands adjourned.
    [Whereupon, at 4:42 p.m., the subcommittees were 
adjourned.]

     
=======================================================================

                            A P P E N D I X

                           September 10, 2019

      
=======================================================================


              PREPARED STATEMENTS SUBMITTED FOR THE RECORD

                           September 10, 2019

=======================================================================

      
      
    [GRAPHIC NOT AVAILABLE IN TIFF FORMAT] 
      
=======================================================================


              WITNESS RESPONSES TO QUESTIONS ASKED DURING

                              THE HEARING

                           September 10, 2019

=======================================================================

      

              RESPONSE TO QUESTION SUBMITTED BY MR. WALTZ

    Ms. Manfra. The majority of submarine cables are privately owned by 
a mix of domestic and foreign entities. The protection of these cables 
is a complex question, considering they travel through domestic and 
international waters, some of which are contested areas. While the U.S. 
and its allies have significant interest in ensuring the safety and 
continued functionality of submarine cables, it will require a 
``concerted effort'' from the United States and its allies to ensure 
the confidentiality, integrity, and availability of the data that 
traverses subsea systems, in addition to the physical security of the 
cable and cable landing station. While DHS is the communications 
sector-specific agency per PPD-21, the current responsibility for 
defending undersea cables landing in the United States involves a 
``whole of government'' approach, which includes the Navy in our 
Exclusive Economic Zone (EEZ) and the Coast Guard within our 12 mile 
nautical sovereignty zone. Team Telecom--primarily made up of executive 
branch agencies DOD, DHS, and DOJ--acts as an advisory committee to the 
FCC in matters related to foreign investment into US domestic 
communications infrastructure. Letters of Assurance (LOAs) and Network 
Security Agreements (NSAs) are memorandums of understanding between the 
USG and the cable owners/operators that govern the location of assets, 
types of principal equipment, physical access controls, and other 
relevant factors surrounding the functionality and protection of 
undersea cable systems. DOD, DHS, and DOJ enforce Team Telecom 
agreements through periodic compliance and mitigation visits to cable 
landing sites, network operations centers, and other relevant 
infrastructure. The Department of Justice and Federal Bureau of 
Investigation investigate and prosecute criminal acts and espionage-
related activities. These activities are informed by reporting from the 
intelligence community and various other federal agencies.   [See page 
30.]

     
=======================================================================


              QUESTIONS SUBMITTED BY MEMBERS POST HEARING

                           September 10, 2019

=======================================================================

      

                  QUESTIONS SUBMITTED BY MS. STEFANIK

    Ms. Stefanik. As you think about our vulnerabilities, are insider 
threats an area of concern with respect to our Nation's internet 
architecture, from either within government or even industry and the 
private sector? How do you monitor for insider threats? Are there 
policies in place that allow you to have a dialogue and understand 
insider threats from within industry and the private sector, or is this 
difficult given privacy issues?
    Ms. Manfra. Malicious insiders pose a serious threat to 
organizations in the public and private sectors, including those that 
own, operate and support our internet architecture. Insiders' 
authorized access and detailed knowledge of critical assets offers them 
opportunities to compromise information, sabotage infrastructure, or 
inflict harm upon co-workers. While insider-threats will always remain 
a concern, it is possible to significantly limit the amount of damage a 
bad insider can do by properly implementing hardware, software, and 
procedural controls to sensitive networks To help counter this threat, 
the Cybersecurity and Infrastructure Security Agency (CISA) strongly 
advocates for an engaged workforce, one that is trained to recognize 
and report suspicious behavior or activity and can help defend against 
insider threats. Personnel security, as well as technical and 
procedural countermeasures, can also assist in detecting suspicious 
behavior and minimizing the risk that insider threats present. In 
addition to free educational materials, CISA's Protective Security 
Advisors work with organizations throughout the U.S. to learn how they 
are prepared to deal with insider threats, and to help organizations 
develop capabilities to mitigate potential insider threats through in-
person training workshops. Voluntary information sharing and 
collaboration with industry and private-sector organizations on the 
value of insider threat programs and mitigation techniques has been a 
valuable tool in CISA's infrastructure security and cybersecurity 
missions.
    Ms. Stefanik. Given the private sector and industry own the 
overwhelming majority of communications infrastructure, how do you 
engage on a recurring basis with the private sector, especially major 
carriers and telecommunications companies? What are the recurring 
themes in these conversations? Are there policy differences, or 
specific problems you are currently working through?
    Ms. Manfra. Information and Communication Technology (ICT) Supply 
Chain Risk Management Task Force
    <bullet>  The Communications Sector co-chairs the ICT Supply Chain 
Risk Management Task Force (Task Force).
    <bullet>  The Task Force was formed in 2018, with strategic 
mandates to provide a forum for the collaboration of private sector 
owners and operators of ICT critical infrastructure and to provide 
advice and recommendations to the U.S. Department of Homeland Security 
(DHS) on means for assessing and managing risks associated with the ICT 
supply chain.
    <bullet>  The working groups have developed policy recommendations 
and guidance documents for the Federal Acquisition Security Council's 
consideration. The Task Force has produced an Interim Report on its 
activities for the first year and will begin its year-two activities in 
the fall of 2019. National Critical Functions
    <bullet>  DHS, through the CISA National Risk Management Center 
(NRMC), released a set of National Critical Functions in April 2019. 
The Communications Sector actively participated in this work effort and 
will continue to be a key partner as CISA begins to build a risk 
register that will add a more prioritized and strategic overlay to 
CISA's critical infrastructure protection efforts.

    Tri-Sector Executive Working Group
    <bullet>  Actively participates as a member of this Critical 
Infrastructure Partnership Advisory Council Working Group that was 
established by the NRMC to collaborate, to understand, prioritize, and 
manage systemic risk, and plan for and respond to cross sector 
incidents. Specifically, the Communications Sector, along with the 
Financial Services Sector and Electricity Sub-sector worked together to 
(1) better understand systemic risk that might impact all three 
sectors; (2) build cross-sector incident response playbooks; and (3) 
direct the development of better intelligence collection requirements 
to these sectors.

    National Security Telecommunications Advisory Committee
    <bullet>  The President's National Security Telecommunications 
Advisory Committee (NSTAC) provides industry-based analysis and 
recommendations to the President and the Executive Branch regarding a 
wide range of policy and technical issues related to 
telecommunications, information systems, information assurance, 
infrastructure protection, and other national security and emergency 
preparedness (NS/EP) concerns.
    <bullet>  President Ronald Reagan created the NSTAC when he signed 
Executive Order (EO) 12382, President's National Security 
Telecommunications Advisory Committee. The NSTAC is composed of up to 
30 Presidentially-appointed senior executives, who represent various 
elements of the telecommunications and information technology 
industries. The NSTAC meets quarterly to report its activities, while 
providing recommendations to the President on policy and enhancements 
to NS/EP telecommunications.
    <bullet>  The NSTAC recently completed a study of the technology 
capabilities critical to NS/EP functions in the evolving ICT ecosystem. 
The goal was to determine what Government measures and policy actions 
could be taken to manage near-term risks, support innovation, and 
enhance vendor diversity in this industry. Specifically, the NSTAC 
analyzed threats to supply chain security and resiliency that exist due 
to the diminishing number of trusted manufacturers producing ICT 
components.
    <bullet>  In September 2019, the NSTAC submitted its 
recommendations in the NSTAC Report to the President on Advancing 
Resiliency and Fostering Innovation in the ICT Ecosystem. In the 
report, the NSTAC recommended that the President create a new role 
within the White House called the Senior Advisor to the President for 
ICT Resiliency; and develop a national strategy on advancing resiliency 
and fostering innovation in the ICT ecosystem, empowering whole-of-
nation resources to pursue a more fundamentally safe internet 
environment for critical services.
    <bullet>  On October 17, 2019, the NSTAC kicked off its next study, 
examining the importance of software-defined networking (SDN). This 
study will examine the importance of SDN; identify the challenges and 
opportunities related to SDN; and assess the utilization of SDN and 
corresponding mitigation issues. The goal of the study is for the NSTAC 
to (1) develop a strategic plan and best practices for deploying SDN in 
Federal networks and critical infrastructure; and (2) provide the 
Government with a better understanding of how SDN can potentially 
address security challenges including ICT supply chain risks.

    Network Security Information Exchange
    <bullet>  The Network Security Information Exchange (NSIE) is an 
information sharing forum charged with devising strategies for 
mitigating cyber threats to the Public Network (PN). The NSIE's primary 
objective is to enhance the security of communications networks 
required for NS/EP.
    <bullet>  CISA participates in bi-monthly joint NSIE meetings, 
which include membership across U.S. Government and industry. NSIE 
membership also includes industry and Government participation from the 
Five Eyes. Industry participation includes major carriers and 
telecommunications companies (i.e., NSTAC NSIE members, including AT&T, 
Verizon, etc.). CISA provides NSIE leadership in the form of the U.S. 
Government NSIE chair and program manager.
    <bullet>  Joint NSIE meetings include a closed session, where NSIE 
members share information on emerging network security challenges, 
vulnerabilities, and mitigation strategies.
    <bullet>  The NSIE periodically assesses risks to the PN from 
electronic intrusions. In December 2014, the NSIE completed An 
Assessment of the Risk to the Cybersecurity of the Public Network, 
which focused on how changes in technology have affected the PN and 
recommended effective mitigation strategies. NSIE members plan to 
update the risk assessment in 2020, and may examine new issues such as 
DNS encryption, log management, workforce training, 5G, and insider 
threat. CISA will support development of the document.

    National Security and Emergency Preparedness (NS/EP) Communications
    <bullet>  The Department maintains a unique contractual 
relationship with the private sector, through major carriers and 
telecommunications companies to fulfill responsibilities of EO 13618, 
Assignment of National Security and Emergency Preparedness 
Communications Functions.
    <bullet>  CISA's Emergency Communications Division conducts a bi-
monthly Service Provider Council forum to address nonproprietary 
telecommunications service matters dealing with NS/EP Communications 
requirements for priority service capabilities within the carrier 
networks as they upgrade switching technologies to all internet 
protocol based.
    Ms. Stefanik. With regard to emerging technologies, specifically 5G 
technology, and the exponential increase in the number of connected 
devices and services in the very near future, how exactly are you 
factoring this technological evolution into your strategies and your 
coordination with the private sector, to fully understand the impacts 
and risks?
    Are there any policy limitations or laws limiting your approach? 
How about the challenges with spectrum, the limited availability, and 
the potential for dynamic spectrum sharing technologies to help manage 
the on-ramp of things such as 5G?
    Ms. Rinaldo. The National Telecommunications and Information 
Administration (NTIA) is taking a multifaceted approach to address the 
challenges of the proliferation of 5G. This starts with assessing how 
such technologies will alter the communications marketplace and the 
impact they will have on numerous adjacent industries and applications. 
Consistent with the Administration's view that the private sector must 
lead in 5G development and deployment, NTIA works to support U.S. 
technological leadership by making sufficient spectrum available, 
facilitating broadband deployment, ensuring U.S. networks are secure, 
supporting industry in global technology standards development, and 
promoting needed research, development, testing and evaluation efforts. 
Access to spectrum is critical to 5G. Although spectrum is a limited 
resource, NTIA has been very successful in its continuing collaboration 
with the Federal Communications Commission to make additional spectrum 
bands available for commercial use while ensuring federal agencies have 
the spectrum needed to perform their important missions. In some 
instances, exclusive-use licenses are made available but, because of 
the congested nature of the spectrum environment, increasingly most 
spectrum bands are shared, including between federal government and 
non-federal government users. Traditional, static methods of sharing, 
principally by excluding new entrants from using specific frequencies 
or from operating in specific geographic areas, are starting to be 
replaced by more dynamic sharing models, such as the newly launched 
Citizens Broadband Radio Service (CBRS) 3.5 GHz band. CBRS represents a 
significant advance in dynamic spectrum sharing and may prove 
applicable to future spectrum management frameworks.
    Ms. Stefanik. As you think about our vulnerabilities, are insider 
threats an area of concern with respect to our Nation's internet 
architecture, from either within government or even industry and the 
private sector? How do you monitor for insider threats? Are there 
policies in place that allow you to have a dialogue and understand 
insider threats from within industry and the private sector, or is this 
difficult given privacy issues?
    Ms. Rinaldo. Every organization faces internal threats, including 
Internet infrastructure organizations. Identifying and responding to 
these threats requires careful risk management practices, which can 
include practices ranging from controlling use of administrative 
privileges, to data loss and theft prevention, to physical security of 
key assets. A number of resources exist to help organizations assess 
insider risks and develop an insider threat program, including those 
published by the Cybersecurity and Infrastructure Security Agency, the 
National Institute for Standards and Technology, and the SANS 
Institute. For its part, NTIA participates in interagency discussions 
with our federal partners, and works through a range of industry fora 
to help the private sector better address their cybersecurity risks, 
including insider threats.
    Ms. Stefanik. Given the private sector and industry own the 
overwhelming majority of communications infrastructure, how do you 
engage on a recurring basis with the private sector, especially major 
carriers and telecommunications companies? What are the recurring 
themes in these conversations? Are there policy differences, or 
specific problems you are currently working through?
    Ms. Rinaldo. NTIA engages with the private sector, including major 
carriers and telecommunications companies, in multiple ways. For 
example, NTIA is an active participant in the Government Coordinating 
Councils (GCC) for the Communications (CGCC) and Information Technology 
(ITGCC) sectors, and regularly attends both the ``joint'' and ``quad'' 
meetings with private sector participants. These Department of Homeland 
Security and Sector-Specific Agency-led councils provide a useful forum 
for bringing together government and private sector organizations. NTIA 
has established its leading role in cybersecurity through use of the 
multistakeholder process to convene stakeholders to address pressing 
cybersecurity concerns. These efforts have broad participation from 
industry, academia, research institutions, and federal departments and 
agencies. Our multistakeholder process efforts have addressed a wide 
range of topics, including software component transparency, Internet of 
Things (IOT) component upgrades and software patching, and coordinated 
vulnerability disclosure. NTIA's current multistakeholder process 
brings stakeholders who draft documents that are approved by a 
consensus of the stakeholders on how to develop a ``software bill of 
materials'' that list the components that make up software--a concept 
similar to a food ingredients list for products on grocery store 
shelves. The goal of the multistakeholder process is to increase 
transparency around the use of third-party software components so that 
when vulnerabilities are detected, there is a way to quickly respond to 
and recover from risks.
    Ms. Stefanik. As you think about our vulnerabilities, are insider 
threats an area of concern with respect to our Nation's internet 
architecture, from either within government or even industry and the 
private sector? How do you monitor for insider threats? Are there 
policies in place that allow you to have a dialogue and understand 
insider threats from within industry and the private sector, or is this 
difficult given privacy issues?
    Given DOD's connections to the Defense Industrial Base, what unique 
responsibilities does the Department have as the lead for the DIB as a 
critical sector?
    Mr. Wilson. Insider threats to the Department, the Defense 
Industrial Base (DIB), and Defense Critical Infrastructure are of great 
concern to the Department. The Office of the Under Secretary of Defense 
for Intelligence (USDI) is the overall lead for countering insider 
threats in DOD. As the Sector Specific Agency (SSA) for the DIB, DOD 
facilitates its DIB partners' efforts to improve the security and 
resilience of DIB networks and systems, in close coordination with the 
Department of Homeland Security (DHS), the Federal Bureau of 
Investigation (FBI), and others. In addition, USDI and the Office of 
the Chief Information Officer (CIO) have forged a partnership to secure 
networks within the perimeter to monitor for potential insider threats. 
The National Industrial Security Program (NISP) is administered by the 
Defense Counterintelligence and Security Agency (DCSA) on behalf of the 
Department of Defense and 33 other Federal departments and agencies. 
Under the NISP, cleared industrial facilities are required to have an 
insider threat program consistent with E.O. 13587 and the National 
Insider Threat Policy and Minimum Standards for Executive Branch 
Insider Threat Programs. The intent is to ensure that insider threat 
programs at commercial facilities are organized and run like those 
found at Executive Branch departments and agencies. Many of the major 
defense contractors have established corporate insider threat programs. 
The Department remains committed to enabling robust security practices 
beyond cleared facilities in partnership with the private sector. 
Recently, both the White House Office of Science and Technology Policy 
(OSTP) and the Under Secretary of Defense for Research and Engineering 
sent letters to the U.S. research community to increase awareness of 
insider threats like foreign talent programs that seek to undermine, 
exploit, and erode our world class research enterprise. DOD shares 
insider threat related data with industry partners, as permitted by 
law. Through a series of pathfinder initiatives, the Department is 
focused on improving its collaboration with DHS, other SSAs, and 
appropriate private sector entities--including select critical 
infrastructure partners--by sharing threat information, conducting 
collaborative analysis of vulnerabilities and threats, and, when 
authorized, mitigating those risks. These pathfinders, in turn, enable 
the Department and its Federal partners to leverage private sector 
threat information to support DOD's mission.
    Ms. Stefanik. Given the private sector and industry own the 
overwhelming majority of communications infrastructure, how do you 
engage on a recurring basis with the private sector, especially major 
carriers and telecommunications companies? What are the recurring 
themes in these conversations? Are there policy differences, or 
specific problems you are currently working through?
    Who specifically in the Department of Defense does this outreach 
and maintains awareness?
    Mr. Wilson. DHS serves as the SSA for the Communications and 
Information Technology Sectors, and works closely with DOD, the 
Department of Justice (DOJ), the Department of Commerce, the Federal 
Communications Commission (FCC), the General Services Administration, 
the Intelligence Community, and the private sector to address both 
short-term and longer-term challenges regarding risks to 
telecommunications networks. Within DOD, the Office of the Chief 
Information Officer is the lead for the Department's participation on 
Team Telecom, an interagency working group of representatives from 
Federal government entities, including the DHS and DOJ co-chairs, 
charged with ensuring the national security of our telecommunications 
networks and infrastructure. Team Telecom is involved in reviewing 
foreign acquisitions of U.S. communications infrastructure as well as 
evaluating FCC Section 214 license applications to operate or provide 
telecommunications networks in the United States for national security, 
public safety, and law enforcement concerns.
                                 ______
                                 
                     QUESTIONS SUBMITTED BY MR. KIM
    Mr. Kim. There was mention of individual agency exercises, but what 
about real-world exercises between different agencies? Who do you think 
should be invited to these exercises? And what are the roles for 
private companies and State and local governments? And who should be in 
charge of running these?
    Ms. Manfra. CISA conducts exercises with agencies to help increase 
cybersecurity preparedness and resilience. Some exercises are internal 
to a single agency, while others include multiple agencies or even 
private sector partners. One noteworthy effort is Cyber Storm, CISA's 
biannual capstone cyber exercise. This includes multiple federal 
agencies, as well as state and international governments, and the 
private sector. The exercise engages players in the discovery of and 
response to a widespread cyber incident. Agencies walk through their 
plans and procedures to share information, coordinate with partners, 
and simulate response actions. Currently, approximately 150 
organizations are slated to participate in Cyber Storm 2020. 
Participants vary, based on the specific goal and objectives of the 
exercise. CISA usually recommends a cross-section of people who have a 
role in cybersecurity. This can include senior leadership, 
cybersecurity or information technology (IT) security staff, incident 
response teams, analysts, legal, public affairs, human resources (HR), 
or the data or system owners. Private companies and state and local 
governments often participate in exercises as players. Cyber Storm is 
one example of an exercise that engages all stakeholders in one 
coordinated effort. CISA also conducts exercises for major events like 
the Super Bowl, which bring together government and private sector to 
talk about how they would share information or respond to a cyber 
incident that would have impacts across their organizations. CISA is 
well-positioned to run these types of exercises for various reasons. 
First, we have responsibilities for federal cybersecurity and asset 
response, so the exercises outputs inform potential plans and 
procedures and help educate people on CISA's role. Second, CISA has 
existing relationships across federal agencies, state and local 
governments, and the private sector, which enables us to engage a wide 
swath of stakeholders in exercises. Finally, CISA has analysts and 
subject matter experts looking at cyber threats daily, who can feed 
that information into exercises to ensure they address current and 
realistic threats and vulnerabilities.
    Mr. Kim. There was mention of individual agency exercises, but what 
about real-world exercises between different agencies? Who do you think 
should be invited to these exercises? And what are the roles for 
private companies and State and local governments? And who should be in 
charge of running these?
    Ms. Rinaldo. The Department of Commerce is a member of the Federal 
Emergency Management Agency's (FEMA) Exercise Implementation Committee 
and the National Security Council's (NSC) Exercise and Evaluation Sub-
Policy Coordinating Committee. NTIA participates in national level 
exercises, coordinated among Commerce agencies at the Department level. 
NTIA's level of participation is determined by the specifics of the 
exercise and its relevance to NTIA's statutory responsibilities. For 
example, NTIA participates in the Eagle Horizon and CyberStorm 
exercises. Eagle Horizon is the mandatory, annual, integrated 
continuity exercise for all federal executive branch departments and 
agencies, as required by National Continuity Policy. CyberStorm is the 
Department of Homeland Security's biennial exercise series to 
strengthen cyber preparedness in the public and private sectors. The 
Department also coordinates participation in senior official exercises 
directed by the NSC. These exercises are held at the Assistant 
Secretary through Secretary level. In addition to NTIA's direct 
participation in national-level exercises, members of the First 
Responder Network Authority (FirstNet Authority) and FirstNet personnel 
from AT&T have engaged with state, local, and tribal entities through 
demonstrations and independent exercise activities. Typically, FirstNet 
will collaborate with a state or local entity to conduct the exercise. 
This summer, FirstNet participated in FEMA's Shaken Fury exercise near 
Memphis, Tennessee, involving a series of tabletop, functional, and 
full-scale exercises in partnership with the U.S. Department of Energy, 
U.S. Northern Command, state and local governments, and the private 
sector.
    Mr. Kim. There was mention of individual agency exercises, but what 
about real-world exercises between different agencies? Who do you think 
should be invited to these exercises? And what are the roles for 
private companies and State and local governments? And who should be in 
charge of running these?
    Mr. Wilson. The Federal Emergency Management Agency (FEMA) is the 
lead for the National Exercise Program (NEP), which addresses National 
response across Federal, State, and local levels, and includes non-
governmental organization, private sector, and private citizen 
participation, depending on the scenario. NEP exercises are mandatory 
for Executive Branch departments and agencies and are used to address 
multi-agency coordination in the performance of National Essential 
Functions. For example, in 2020, DOD will participate in the FEMA-led 
National Level Exercise, which is focused on domestic cyber incidents 
and is intended to link together a broad range of interagency exercises 
around a common theme. Additionally, each Federal department and agency 
hosts exercises to inform their respective missions, learn lessons, and 
improve mission readiness. The goals and objectives of an exercise 
drive the scope, scenarios, and participation. Although some exercises 
are internally focused on an individual department or agency, others 
include broad interagency and other participation. DOD hosts a range of 
internal and interagency exercises, and supports and participates in 
exercises hosted by DHS, the Department of Energy, the Intelligence 
Community, and others. In August 2019, DOD hosted a table-top exercise 
to improve DOD's ability to provide Defense Support of Civil 
Authorities (DSCA) in response to a cyber incident. The exercise 
included representatives from DOD, other Federal departments and 
agencies, the energy sector, and State and local governments. U.S. 
Northern Command (USNORTHCOM) hosted a table-top exercise in October 
2019 focused on improving DOD's operational coordination structure for 
DSCA responses to cyber incidents, with the goal of improving and 
streamlining interagency integration in advance of a cyber incident. 
U.S. Cyber Command (USCYBERCOM) hosts the annual CYBER GUARD exercise, 
which focuses on refining DOD's readiness to respond to a domestic 
cyber incident. CYBER GUARD includes a wide range of participants from 
Federal departments and agencies and other entities.
                                 ______
                                 
                  QUESTIONS SUBMITTED BY MS. HOULAHAN
    Ms. Houlahan. I also serve on the Foreign Affairs Committee. I am 
curious what collaboration has looked like and will look like for each 
of your respective agencies as the Department of State stands up the 
Bureau of Cyberspace Security and Emerging Technologies and as other 
agencies consider creating similar teams? Further, do you see a need 
for the Presidential Policy Directive 21 (PPD-21), which divvies up 
responsibilities within the Federal Government for cyber, to be updated 
to reflect the emergence of these new departments?
    Ms. Manfra. DHS collaborates and coordinates on international cyber 
engagements with the U.S. Departments of State, Defense, Justice, 
Commerce, and other federal agencies. At present, CISA and the U.S. 
Department of State's Office of the Coordinator for Cyber Issues 
collaborate on a range of issues from cyber capacity building and 
critical infrastructure protection, to cybersecurity awareness. As 
State stands up the Bureau of Cyberspace Security and Emerging 
Technologies, DHS expects coordination to increase and for additional 
partnership with international counterparts on cybersecurity. This new 
office at State will help enhance the outreach to international 
partners and be in direct support of what is already stated in 
Presidential Policy Directive 21 (PPD-21), which currently provides 
that ``the Department of State, in coordination with DHS, Sector 
Specific Agencies, and other Federal departments and agencies, shall 
engage foreign governments and international organizations to 
strengthen the security and resilience of critical infrastructure 
located outside of the United States and to facilitate the overall 
exchange of best practices and lessons learned for promoting the 
security and resilience of critical infrastructure on which the Nation 
depends.'' As PPD-21 already provides for this role for the State 
Department, CISA does not see the need to update PPD-21.
    Ms. Houlahan. I often ask our witnesses to speak on two workforce 
challenges facing our government, as well as our society. First, do you 
feel your organization has the necessary expertise to execute your 
mission? Is our workforce being adequately prepared to meet these 
emerging threats? Do you have any concerns that this pipeline is 
lacking? Finally, what sorts of challenges does your organization face 
when recruiting technical experts when competing with the private 
sector? What could we do to support these recruitment efforts?
    Ms. Manfra. 1. The United States depends on the reliable 
functioning of critical infrastructure. Cybersecurity threats exploit 
the increased complexity and connectivity of critical infrastructure, 
potentially placing the Nation's security, economy, and public safety 
and health at risk. Paramount to equipping the Federal Government and 
the nation's critical infrastructure entities with cybersecurity 
information and assistance is a workforce with the right competencies, 
knowledge, skills, and abilities to underpin CISA's mission 
capabilities, in support of the National Cybersecurity Strategy and 
Risk Management Framework. CISA recruits and builds these competencies 
through buying, building, and borrowing talent. CISA focuses on hiring 
the best and brightest talent and augments its capability through 
contractors. Training is paramount to mission success and CISA 
continues to cultivate and capitalize on opportunities to invest in its 
employees and equip them with maturation of current skills, as well as 
expand upon them. While CISA employs superior talent, expertise is not 
a static endeavor; but rather, a continuous effort. Through training, 
CISA strives to prepare a cybersecurity workforce with the skills to be 
more resilient and excel at mission capability requirements.
    2. The President's Management Agenda laid out a long-term vision 
for modernizing the Federal Government's key areas that will improve 
the ability deliver mission outcomes. To drive the management 
priorities, the Administration created Cross-Agency Priority (CAP) 
Goals, centered on ``Modernizing Government for the 21st century.'' One 
of the three CAP Goals calls for investing in people and creating the 
``Workforce for the 21st Century.'' This theme is carried throughout 
the National Cybersecurity Strategy and the DHS Cybersecurity Strategy, 
calling for the use of innovative solutions to ``keep pace with the 
current pace of change.'' The systematic approach to meet CISA's 
workforce needs incorporates the concepts of buying, building, and 
borrowing talent. DHS has largely been focused on buying talent through 
the existing hiring system and the future enhanced Cyber Talent 
Management System. The DHS Office of the Chief Human Capital Officer 
(OCHCO) is leading the effort to prepare for the launch of the CTMS and 
create the DHS Cybersecurity Excepted Service. The effort will 
modernize talent management to align to and keep pace with the 
cybersecurity work of the Department by taking a comprehensive approach 
to recruit and retain talent modeled after industry best practices. 
Competition in the marketplace to recruit and retain cyber 
professionals continues to grow, along with the demand for cyber 
defense experts to protect our nation's networks and information 
systems. To overcome these challenges, the Administration has focused 
on efforts under the Federal CAP Goal, Developing a Workforce for the 
21st Century, to improve service to America through enhanced alignment 
and strategic management of the Federal workforce. To further build 
upon the work already done and increase employee engagement, on May 2, 
2019, the Administration published the Executive Order on America's 
Cybersecurity Workforce, with the direction to strengthen the 
cybersecurity capability of the Federal workforce through increased 
integration and skills enhancement opportunities under a rotational 
program. The Federal Cybersecurity Rotation Program is a career 
broadening opportunity for cybersecurity practitioners to expand their 
cybersecurity competencies, expand the depth of their Federal 
cybersecurity knowledge and experiences, and strengthen their skills. 
It will allow current Federal employees to gain exposure to a range of 
cybersecurity functional areas to improve their cybersecurity 
perspective and learning agility through stretch assignments. The 
program will also expand upon the successful Federal Cybersecurity 
Reskilling Academy, executed by OMB, OPM and the Department of 
Education in FY 2019, DHS will develop non-cyber federal employees who 
are interested in a cyber-career and have the necessary competencies by 
assessing their capability and aligning training and career broadening 
opportunities to develop them into cyber practitioners. Participants 
will gain development and skill enhancement through required and 
blended learning approaches such as work role-specific tours, 
conferences, cohort networking and training events, leveraging web-
based virtual labs, and mentoring, in addition to the on-the-job 
experience. CISA is working alongside the Department of Veterans 
Affairs and Department of Defense to create career pathways using the 
NIST NICE Cybersecurity Workforce Framework, which build upon the 
workforce development programs suggested in the report's 
recommendations. CISA looks to continue to build upon training and 
education programs that transform, elevate, and sustain the learning 
environment to grow a dynamic and diverse cybersecurity workforce. 
Further, the CISA is working with the Department of Veterans Affairs, 
Department of Defense, and Office of Personnel Management to identify 
and leverage tools to assess aptitude and skills related to cyber 
positions. Many of these efforts, including the cataloguing of 
cybersecurity positions using the NIST framework, the rotational 
program and the reskilling academy are highlighted in the 
Administration's Solving the Federal Cyber Workforce Shortage paper 
included in the June 2018 Delivering Government Solutions in the 21st 
Century. In a field that experiences as much change as cybersecurity, 
updating employee skills that will be critical as the threat landscape 
evolves is important. However, employee development can have a 
beneficial effect on retention. Providing a well-defined career path, 
as well as associated trainings, that clearly map how a cybersecurity 
employee can grow within the organization, may contribute to retention. 
If provided a path to improve, acquire new skills, and progress along 
an exciting career path, whether it be technical or leadership in 
nature, employees will stay engaged and thus will be less likely to 
separate. Support to publish these career pathways on the NIST NICE 
website will benefit both the public and private sector. CISA believes 
it has exercised all available opportunities to recruit and retain 
talent to the extent allowable.Finally, investment in the resources 
necessary for the HR IT to recruit and serve existing employees is 
critical to success. The current DHS HR IT solutions are predominately 
disjointed and some business processes are still paper-based; which 
adversely impacts the ability of DHS HR professionals to deliver high 
quality, effective services to the DHS workforce, including the 
recruitment and hiring of highly skilled personnel to meet the DHS 
mission. The Administration has recognized this and has included an 
increase of $10.5M in the DHS Management Directorate's Fiscal Year 2021 
Budget to continue enhancements of the HR IT Portfolio and provide 
advanced automation capabilities across the DHS HR community, DHS 
workforce, and in some cases, family members of the DHS workforce. 
These improvements will provide DHS employees with self-service 
capabilities and will have profound effects on the DHS workforce and 
its readiness to support the DHS mission. This funding will support 
recruitment requirements and allow for a top-notch customer service 
organization capable of supporting a workforce to be on par and 
consistent with its private sector competition. CISA will work through 
the budget process to support this critical investment moving forward.
    Ms. Houlahan. Google has announced that they are considering making 
change to the DNS settings on their Chrome browser and Android 
operating system that would, reportedly, have the effect of displacing 
DNS services provided by ISPs and other third parties and making Google 
the centralized encrypted DNS provider by default for most of the 
Internet. Is DHS/CISA aware of Google's plans? What are some of the 
implications of Google's plan to centralize DNS data? Specifically, how 
will Google's plan affect malware detection tools used to protect this 
nation's Critical Infrastructure?
    Ms. Manfra. The characterization that Google will become ``the 
centralized encrypted DNS provider by default for most of the 
Internet'' is incorrect. Google's plan, as shared in a September 10 
blog post, is that the DNS settings for Chrome will be upgraded to a 
secure connection, only if the current DNS provider offers a secure 
connection. As Kenji Baheux, Chrome Product Manager, says in the post, 
``the DNS service will not change, only the protocol will. As a result, 
existing content controls of your current DNS provider, including any 
existing protections for children, will remain active.'' The post then 
describes in greater detail how this will occur and provides steps for 
users who prefer an insecure connection to opt-out. Microsoft has also 
made an announcement to offer DNS over HTTPS at the operating system 
level in a similar way Chrome does it within the browser. Mozilla 
Firefox is planning a change that would move users by default to a 
single, encrypted DNS provider, but Mozilla offered extensive 
documentation to continue supporting enterprise IT use cases; network-
provided DNS can still be made mandatory. While only a single DNS 
provider is currently offered, Mozilla has made clear they are 
``working to build a larger ecosystem.'' CISA believes both approaches 
are thoughtful and helpful in driving users to more secure services. 
However, CISA also recognizes the side effects of increased DNS-over-
HTTPS (DOH) use can cause--those enterprises that do not manage their 
assets effectively to lose visibility into DNS traffic leaving their 
endpoints. This also may inhibit CISA's ability to prevent malicious 
domains from resolving in civilian executive branch networks using 
EINSTEIN 3 Accelerated intrusion prevention capabilities. Centralizing 
DNS resolution to any service operator could provide that entity with 
unique insights into the DNS behavior of users. It could also deprive 
enterprise network security operations, cybersecurity service 
providers, and internet service providers of that same insight. 
However, as noted, enterprise policies can still be set on managed 
devices to require the use of an enterprise's preferred DNS provider. 
At the same time, CISA believes that Google and Mozilla's effort is 
intended to have positive security and privacy impacts of individual 
end users of their products, and to improve the performance of their 
systems. Not all malware detection mechanisms rely on the analysis of 
DNS activity. CISA has always recommended that critical infrastructure 
organizations thoughtfully employ defense-in-depth strategies that 
allow for the detection and prevention of unauthorized access by 
multiple means. However, in cases where DNS monitoring is used to 
detect unauthorized activity on Android devices and the Chrome web 
browser in the business networks of critical infrastructure entities, 
Google's plan could create a blind spot for network security analysts 
where those devices are not configured to abide by enterprise policies.
    Ms. Houlahan. The process of DNS resolution today is very 
decentralized--it involves many DNS resolvers working in concert to 
power the Internet for this country and globally. What impact would 
centralization of DNS resolution would have in terms of our nation's 
cyber preparedness, resiliency, and security?
    Ms. Manfra. CISA seeks to champion technologies that help secure 
DNS and does not intend to re-engineer the distributed architecture of 
DNS infrastructure. Our intent is to re-route federal DNS traffic from 
untrusted service providers (some of which may be owned and operated by 
foreign entities), to trusted, U.S. owned recursive DNS service 
provider. CISA provided service will still offer distributed and 
resilient infrastructure in order to support our nation's preparedness, 
resiliency, and security. The service will provide managed federal DNS 
infrastructure that supports the latest DNS technologies (e.g. DNS over 
HTTPS and DNS over TLS), applies consistent protections and state of 
the art threat feeds, and provides CISA with visibility into the 
federal DNS traffic for analysis and feature enhancements.
    Ms. Houlahan. I also serve on the Foreign Affairs Committee. I am 
curious what collaboration has looked like and will look like for each 
of your respective agencies as the Department of State stands up the 
Bureau of Cyberspace Security and Emerging Technologies and as other 
agencies consider creating similar teams? Further, do you see a need 
for the Presidential Policy Directive 21 (PPD-21), which divvies up 
responsibilities within the Federal Government for cyber, to be updated 
to reflect the emergence of these new departments?
    Ms. Rinaldo. NTIA does not see a need to revise PPD-21 based on the 
creation of new agencies. PPD-21 is flexible in that it assigns general 
responsibilities primarily at the department level, and relevant new 
agencies would be tasked at the direction of their departmental 
leadership. NTIA collaborates regularly with departments and agencies 
on cybersecurity issues. Newly established agencies' missions will be 
incorporated into the interagency policy process and work flow.
    Ms. Houlahan. The process of DNS resolution today is very 
decentralized--it involves many DNS resolvers working in concert to 
power the Internet for this country and globally. What impact would 
centralization of DNS resolution would have in terms of our nation's 
cyber preparedness, resiliency, and security?
    Ms. Rinaldo. NTIA is actively monitoring recent protocol 
developments and implementations to encrypt Domain Name System (DNS) 
queries, such as DNS-over-Transport Layer Security and DNS-over-
Hypertext Transfer Protocol Secure. NTIA staff regularly consult with 
DNS technologists and experts to understand the impact that new DNS 
security implementations may have on the Internet ecosystem. The 
Internet's decentralized architecture, including the DNS, Transmission 
Control Protocol/Internet Protocol, and physical infrastructure, has 
been one of its greatest strengths. It has contributed to innovations 
in connectivity and network performance, allowing companies to pursue 
economies of scale in telecommunications, content delivery, Web 
services, and other sectors and to offer greater connection speed and 
reliability for American consumers. The new protocol implementations 
represent a shift from current DNS resolution practice, but NTIA is 
closely monitoring these developments and working to ensure that such 
implementations do not introduce cyber threats to the Internet 
ecosystem or compromise its overall resiliency and security.
    Ms. Houlahan. I also serve on the Foreign Affairs Committee. I am 
curious what collaboration has looked like and will look like for each 
of your respective agencies as the Department of State stands up the 
Bureau of Cyberspace Security and Emerging Technologies and as other 
agencies consider creating similar teams? Further, do you see a need 
for the Presidential Policy Directive 21 (PPD-21), which divvies up 
responsibilities within the Federal Government for cyber, to be updated 
to reflect the emergence of these new departments?
    Mr. Wilson. DOD has been apprised of Department of State plans to 
reorganize internally. DOD does not anticipate a change in how DOD 
interacts with the Department of State on cyberspace issues as a result 
of the reorganization. At this time, because broad department 
responsibilities will not change as the result of internal departmental 
organizational changes, DOD does not anticipate a need to update PPD-
21. Further, DOD encourages the critical infrastructure Sector Specific 
Agencies (SSAs) identified in PPD-21 to establish or bolster 
cybersecurity and cyber resilience measures to assure the protection 
and continued function of systems, capabilities, and assets for which 
they are responsible. Through a series of pathfinder initiatives, DOD 
is focused on improving its collaboration with DHS, other SSAs, and 
appropriate private sector entities--including select critical 
infrastructure partners--by sharing threat information, conducting 
collaborative analysis of vulnerabilities and threats, and, when 
authorized, mitigating those risks. These pathfinders, in turn, enable 
DOD and its Federal partners to leverage private-sector threat 
information to support DOD's mission.
    Ms. Houlahan. In nuclear policy, the concept of deterrence is 
founded in our understanding of our adversaries' nuclear capabilities 
and our adversaries' understanding our own nuclear capabilities. It is 
my understanding that we don't have as thorough an understanding of our 
adversaries' capabilities when it comes to cyber. What work is being 
done to establish global nuclear norms? What steps are being taken to 
improve our partners' cybersecurity capabilities, especially those 
countries at most risk of cyber attack from our adversaries? Which 
department or agency is leading that effort?
    Mr. Wilson. The Department of Defense works closely with the 
Department of State to deter malicious cyber activity and foster 
stability in cyberspace in part through the identification and 
promotion of peacetime norms of responsible state behavior in 
cyberspace. The 2015 report of the United Nations Group of Government 
Experts (UN GGE) on Information and Communications Technologies in the 
Context of International Security was instrumental in promoting certain 
cyberspace norms, and the GGE process is scheduled to resume in 
December 2019. As the lead foreign affairs agency, the Department of 
State has the lead role in coordinating foreign assistance, including 
cyberspace-related capacity-building assistance for international 
partners. DOD works to build the cyber capacity of its international 
partners, and the 2018 DOD Cyber Strategy lists expanding DOD cyber 
cooperation with international partners as one of the Department's key 
cyberspace objectives. DOD recently issued DOD International Cyberspace 
Security Cooperation Guidance to DOD components to facilitate and 
prioritize cyberspace capacity-building with allies and partners.
    Ms. Houlahan. The process of DNS resolution today is very 
decentralized--it involves many DNS resolvers working in concert to 
power the Internet for this country and globally. What impact would 
centralization of DNS resolution would have in terms of our nation's 
cyber preparedness, resiliency, and security?
    Mr. Wilson. Centralization of Domain Name System (DNS) resolution 
offers the idea of improved efficiency of system administration and has 
the potential to reduce the costs for resources. However, the impact of 
centralization of DNS resolution comes at the expense of security. 
Further, having a national or international centralized DNS name space 
would not be scalable. The DNS hierarchy was designed to be 
distributed; this distribution provides technical diversity, 
resiliency, and stability.
    DNS centralization would result in greater vulnerability of 
specific targeted attacks and could increase the risk and threat 
levels. Globally, any attempt by one country to centralize DNS of 
independently managed country code domains and generic database Top 
Level Domains would most likely not be approved by the multi-
stakeholder Internet Governance organizations and model that governs 
today's Internet. To clarify, a centralized DNS created by the United 
States would likely create opposition by foreign entities (e.g., 
countries, corporations). This would likely culminate in the generation 
of a fragmented or splintered Internet.

                                  [all]
</pre></body></html>
